The Federal Deposit Insurance Corporation (FDIC) is an
independent agency created by the Congress to maintain
stability and confidence in the nation’s banking system by
insuring deposits, examining and supervising financial
institutions, and managing receiverships. Approximately               Office of Inspector General
7,480 individuals carry out the FDIC mission throughout the
country. According to most current FDIC data, the FDIC
insured $7.406 trillion in deposits in 7,083 institutions, of
which the FDIC supervised 4,460. As a result of institution
failures during the financial crisis, the balance of the Deposit
Insurance Fund turned negative during the third quarter of
2009 and hit a low of negative $20.9 billion by the end of that
year. The FDIC subsequently adopted a Restoration Plan, and        Semiannual Report
with various assessments imposed over the past few years,
the Deposit Insurance Fund balance steadily increased to a
positive $33 billion as of December 31, 2012. Receiverships
                                                                    to the Congress
under FDIC control as of December 31, 2012 totaled 466, with
about $17 billion in assets.
                                                                     October 1, 2012 – March 31, 2013
 Inspector General’s Statement

    The Federal Deposit Insurance Corporation     and its governance activities, including those
(FDIC) and the economy continue to make           related to information security practices to
gradual but steady progress in recovering         help ensure corporate readiness to efficiently
from the unprecedented financial crisis and       and effectively conduct business activities
the severe recession that followed. The FDIC is   and address emerging risks.
currently focusing on the Chairman’s priorities       Our criminal investigations of fraud
of implementing the FDIC’s systemic resolu-       impacting the FDIC and its operations
tion responsibilities under the Dodd-Frank        continue to achieve results, with 46
Wall Street Reform and Consumer Protection        indictments, 66 convictions, and potential
Act (Dodd-Frank Act); following up on the         monetary benefits of nearly $172 million
FDIC’s community banking initiatives; and         during the reporting period. Our caseload
continuing economic inclusion efforts.            includes a number of investigations involv-
    Of note for the Office of Inspector           ing senior bank officials who were trusted
General (OIG), during the reporting period,       insiders in their institutions but who misused
we completed a series of assignments in           their positions. They engaged in fraudulent
response to Public Law 112-88, also known         activities that undermined the integrity of
as H.R. 2056, requiring that we conduct a         the financial services industry and, in some
comprehensive study on the impact of the          cases, contributed to the failures of their
failure of insured depository institutions and    institutions. We are coordinating closely with
submit a report, along with recommenda-           the FDIC Legal Division and the Division of
tions, to the Congress. We issued our report      Risk Management Supervision on information
on January 3, 2013, and I testified before        related to open and closed bank matters
the House Financial Services Committee,           that may be of assistance in the Corpora-
Subcommittee on Financial Institutions and        tion’s pursuit of enforcement actions against
Consumer Credit, in March 2013 to convey          financial institution-affiliated parties and to
our results. With that work behind us, we have    receive information from the Legal Division
been able to turn attention to other audit        that may be helpful to related OIG investiga-
and evaluation priorities. These include, for     tive efforts. Our goals are compatible—we
example, examining the operations of the          want to prevent individuals responsible for
FDIC’s Office of Complex Financial Institutions   bank failures and losses to the insurance fund
as it addresses the supervisory, insurance, and   from further involvement in the industry and
resolution risks presented to the FDIC by the     ensure that they are subject to the criminal
largest and most complex financial institu-       sanctions they deserve.
tions, in keeping with the Dodd-Frank Act.            In closing, I would note that at the end
We are also currently examining the FDIC’s        of January 2013, I completed my service as
actions to address consumer protection viola-     Interim Inspector General at the U.S. Securi-
tions and deficiencies and plan to examine        ties and Exchange Commission—a position I
the coordination between the prudential           held at the request of the Chair of the Council
regulators and the Consumer Financial Protec-     of the Inspectors General on Integrity and
tion Bureau as they carry out their respective    Efficiency during a period when the Commis-
responsibilities. We also intend to review the    sion was seeking to name a permanent
controls in the internal operations of the FDIC   Inspector General. I thank the FDIC Chairman      3
    and the OIG staff for supporting me in that




                                                    T
    role.
        The FDIC faces many challenges ahead. My
    office is committed to carrying out the OIG’s
    independent oversight mission at the FDIC—
    in the interest of ensuring the Corporation’s        Table of Contents
    success in meeting those challenges.




                                                        Inspector General’s Statement.......................................................................3
                                                        Abbreviations and Acronyms..........................................................................6
       Jon T. Rymer                                     Highlights and Outcomes................................................................................7
       Inspector General
                                                        Strategic Goal Areas
       April 2013
                                                    1 Supervision: Assist the FDIC to Ensure the Nation’s
                                                      Banks Operate Safely and Soundly........................................................... 12

                                                    2 Insurance: Help the FDIC Maintain the Viability of the
                                                      Insurance Fund................................................................................................. 26

                                                    3 Consumer   Protection: Assist the FDIC to Protect
                                                      Consumer Rights and Ensure Customer Data
                                                         Security and Privacy....................................................................................... 28

                                                    4 Receivership   Management: Help Ensure that the FDIC
                                                      Efficiently and Effectively Resolves Failing Banks and
                                                         Manages Receiverships................................................................................. 31

                                                    5 Resources   Management: Promote Sound Governance
                                                      and Effective Stewardship and Security of Human,
                                                         Financial, Information Technology, and Physical Resources............ 35

                                                    6 OIG Resources Management: Build and Sustain a
                                                      High-Quality Staff, Effective Operations, OIG Independence,
                                                         and Mutually Beneficial Working Relationships................................... 40
                                                        Cumulative Results (2-year period)............................................................ 47
                                                        Reporting Requirements............................................................................... 48
                                                        Appendix 1: Information Required by the Inspector General Act
                                                        of 1978, as amended....................................................................................... 49
                                                        Appendix 2: Information on Failure Review Activity........................... 54
                                                        Appendix 3: Peer Review Activity............................................................... 56
                                                        Congratulations and Farewell...................................................................... 58




4                                                                                                                                                                          5
                                                                                        Highlights and Outcomes
    Abbreviations and Acronyms
                                                                                            The OIG works to achieve five strategic        failing after January 1, 2012 and determined
    ADC	              acquisition, development, and construction                        goals that are closely linked to the FDIC’s        whether unusual circumstances existed that
    CD	               certificate of deposit                                            mission, programs, and activities, and one         would warrant an in-depth review in those
    CIGFO	            Council of Inspectors General on Financial Oversight              that focuses on the OIG’s internal business        cases.
    CIGIE	            Council of the Inspectors General on Integrity and Efficiency     and management processes. These highlights             Ongoing audit and evaluation work in this
    DHS	              Department of Homeland Security                                   show our progress in meeting these goals           goal area at the end of the reporting period
                                                                                        during the reporting period. As noted in our       included an audit of the FDIC’s response to
    DIF	              Deposit Insurance Fund
                                                                                        last semiannual report, the majority of our        Bank Secrecy Act/anti-money laundering
    Dodd-Frank Act	   Dodd-Frank Wall Street Reform and Consumer Protection Act         audit and evaluation resources during the          concerns identified at FDIC-supervised
    DOE	              Department of Energy                                              reporting period were devoted to ongoing           institutions and an evaluation of the financial
    DOI	              Department of the Interior                                        assignments conducted pursuant to Public           regulatory agencies’ programs for pursuing
    DRR	              Division of Resolutions and Receiverships                         Law 112-88, or H.R. 2056, requiring that           enforcement actions and professional liability
    ECU	              Electronic Crimes Unit                                            we conduct a comprehensive study on the            claims that we will conduct jointly with other
                                                                                        impact of the failure of insured depository
    FBI	              Federal Bureau of Investigation                                                                                      financial regulatory OIGs.
                                                                                        institutions. Having completed that work and
    FDI Act	          Federal Deposit Insurance Act                                     issuing our report on January 3, 2013, we initi-       With respect to investigative work, as
    FDIC	             Federal Deposit Insurance Corporation                             ated a number of new audits and evaluations        a result of cooperative efforts with U.S.
    FISMA	            Federal Information Security Management Act of 2002               during the current reporting period and many       Attorneys throughout the country, numerous
    FOIA	             Freedom of Information Act                                        of these are in the early stages. A summary of     individuals were prosecuted for financial
                                                                                        our completed work, along with references to       institution fraud, and we also successfully
    FRB	              Board of Governors of the Federal Reserve System
                                                                                        selected ongoing assignments, is presented         combated a number of mortgage fraud
    FSOC	             Financial Stability Oversight Council                                                                                schemes. Our efforts in support of bank
                                                                                        below.
    FY	               Fiscal Year                                                                                                          fraud, mortgage fraud, and other financial
                                                                                           Strategic Goal 1 – Supervision:	
    GAO	              U.S. Government Accountability Office                                                                                services working groups also supported this
                                                                                        Assist the FDIC to Ensure the Nation’s
    GFRS	             Governmentwide Financial Report System                                                                               goal. Particularly noteworthy results from our
                                                                                        Banks Operate Safely and Soundly
    GPRA	             Government Performance and Results Act of 1993                                                                       casework include the pleas and sentencings
                                                                                            Our work in helping to ensure that the         of a number of former senior bank officials
    IG	               Inspector General
                                                                                        nation’s banks operate safely and soundly          and bank customers involved in fraudulent
    IRS-CI	           Internal Revenue Service, Criminal Investigation Division         takes the form of audits, investigations,          activities that undermined the institutions
    IT	               Information Technology                                            evaluations, and extensive communication           and, in some cases, contributed to the institu-
    OCC	              Office of the Comptroller of the Currency                         and coordination with FDIC divisions and           tions’ failure. For example, a former officer of
    OCFI	             Office of Complex Financial Institutions                          offices, law enforcement agencies, other           New Frontier Bank pleaded guilty to making
                                                                                        financial regulatory OIGs, and banking             false bank entries, misapplication of bank
    OIG	              Office of Inspector General
                                                                                        industry officials. During the reporting           funds, bank fraud, and money laundering.
    OMB	              Office of Management and Budget
                                                                                        period, we completed two reports involving
    OTS	              Office of Thrift Supervision                                                                                             Also of note during the reporting period
                                                                                        supervision issues. One of those, in large
    RMS	              Division of Risk Management Supervision                                                                              were several successful mortgage fraud cases.
                                                                                        part, was in response to H.R. 2056, where
                                                                                                                                           In one case, the lead figure, a former bank
    SAR	              Suspicious Activity Report                                        we addressed aspects of FDIC examiners’
                                                                                                                                           employee, was sentenced to 97 months in
    SIGTARP	          Special Inspector General for the Troubled Asset Relief Program   review of an institution’s lending and loan
                                                                                                                                           prison and ordered to pay $11.6 million in
    SLA	              Shared-Loss Agreement
                                                                                        review functions, capital adequacy, allowance
                                                                                                                                           restitution. Yet another scheme involved
                                                                                        for loan and lease loss estimates, appraisal
                                                                                        programs, loan workouts, and the supervisory       multiple attorneys, loan officers from a
                                                                                        enforcement actions that examiners pursue          mortgage brokerage firm, a real estate title
                                                                                        to address identified deficiencies. The other      closer, and numerous strawbuyers, many
                                                                                        report involved acquisition, development,          of whom are now serving prison terms and
                                                                                        and construction lending, believed to be a         required to pay restitution.
                                                                                        contributing factor to institution failures,            The Office of Investigations also continued
                                                                                        when not accompanied by a proper control           its close coordination and outreach with
                                                                                        environment. We also completed 13 failure          the Division of Risk Management Supervi-
                                                                                        reviews of institutions whose failures caused      sion (RMS), the Division of Resolutions and
                                                                                        losses to the Deposit Insurance Fund of            Receiverships, and the Legal Division by way
                                                                                        less than the threshold of $150 million if         of attending quarterly meetings, regional

6                                                                                                                                                                                             7
    training forums, and regularly scheduled           consumer protection through its work. For          depository institutions and the policies           information entered into the reporting system
    meetings with RMS and the Legal Division           example, during the reporting period, as a         and procedures governing such activity.            for the fiscal year (FY) ended September 30,
    to review Suspicious Activity Reports and          result of an investigation, an individual posing   (Results in these areas are discussed in goal 1,   2012.
    identify cases of mutual interest. We have         as an FDIC “broker” was sentenced to 144           Supervision.)                                          At the end of the reporting period, we
    strengthened our process for regular coordi-       months in prison and ordered to pay nearly             We would also note that in connection          were undertaking work in the areas of
    nation of enforcement action matters with          $6 million in restitution to his victims for his   with the FDIC’s new resolution authority for       information technology project management,
    the Legal Division and RMS, a step that has        role in a Ponzi fraud scheme through which         systemically important financial institutions,     controls for safeguarding sensitive informa-
    proven to be mutually beneficial. (See             he marketed and sold fictitious FDIC-insured       the Dodd-Frank Wall Street Reform and              tion submitted under the Dodd-Frank Act,
    pages 12-25.)                                      certificates of deposit to unsuspecting senior     Consumer Protection Act (Dodd-Frank Act)           and our 2013 audit of the FDIC’s information
       Strategic Goal 2 – Insurance: Help              citizen investors.                                 requires that the FDIC OIG conduct, supervise,     security management.
    the FDIC Maintain the Viability of the                 Also of note, our Electronic Crimes Unit       and coordinate audits and investigations               We promoted integrity in FDIC internal
    Insurance Fund                                     responded to instances where fraudulent            of the liquidation of any covered financial        operations through ongoing OIG Hotline
        We did not conduct specific assign-            emails purportedly affiliated with the FDIC        company by the Corporation as receiver
                                                                                                                                                             and other referrals and coordination with the
    ments to address this goal area during the         were used to entice consumers to divulge           under Title II of the Act. We are taking steps
                                                                                                                                                             FDIC’s divisions and offices, including corpo-
    reporting period. However, our audit and           personal information and/or make monetary          to ensure we are prepared for such an
                                                                                                                                                             rate ethics officials, as warranted.
    evaluation work in support of goal 1 fully         payments. Working with the Corporation’s           eventuality.
                                                                                                                                                             (See pages 35-39.)
    supports this goal, as does the investigative      Division of Information Technology, our               From an investigative standpoint, our
    work highlighted above. In both cases, our         investigators seek to protect consumers by                                                               Strategic Goal 6 – OIG Resources
                                                                                                          Electronic Crimes Unit continued to support
    work can serve to prevent future losses to         dismantling such schemes. In further support                                                          Management: Build and Sustain a
                                                                                                          investigative activities related to bank
    the insurance fund by way of findings and          of consumer protection, the OIG also contin-                                                          High-Quality OIG Staff, Effective Opera-
                                                                                                          closings by providing computer forensic
    observations that can help to prevent future       ued to respond to a number of inquiries from                                                          tions, OIG Independence, and Mutually
                                                                                                          support in ongoing fraud investigations.
    failures, and the deterrent aspect of investiga-   the public, received both through our Hotline                                                         Beneficial Working Relationships
                                                                                                          (See pages 31-34.)
    tions and the ordered restitution that may         and through other channels. We addressed                                                                  To ensure effective and efficient manage-
                                                       about 150 such inquiries during the past              Strategic Goal 5 – Resources
    help to mitigate an institution’s losses and                                                                                                             ment of OIG resources, we continued to focus
                                                       6-month period. (See pages 28-30.)                 Management: Promote Sound Gover-
    losses to the Deposit Insurance Fund. (See                                                                                                               on a number of initiatives to monitor and
                                                                                                          nance and Effective Stewardship and
    pages 26-27.)                                          Strategic Goal 4 – Receivership                                                                   track OIG spending, particularly costs involved
                                                                                                          Security of Human, Financial, IT, and
       Strategic Goal 3 – Consumer Protec-             Management: Help Ensure that the FDIC                                                                 in travel and procurements, and to explore
                                                                                                          Physical Resources
    tion: Assist the FDIC to Protect Consumer          Efficiently and Effectively Resolves Failing                                                          options for a better system to capture data on
                                                       Banks and Manages Receiverships                         In support of this goal area, during the      our investigative cases. We also provided our
    Rights and Ensure Customer Data Security
                                                                                                          reporting period, we issued the results of a       FY 2014 budget request to the Congress and
    and Privacy                                             We completed one assignment in this goal      billing review of Lockheed Martin in which         for subsequent inclusion in the President’s
        We did not devote audit or evaluation          area during the reporting period. That is, we      we identified $740,784 in questioned costs         budget. This budget reflects $34.6 million to
    resources to specific consumer protection          conducted an audit of the Division of Resolu-      and made additional recommendations                support 130 full-time equivalents, no increase
    matters during the past 6-month period             tions and Receiverships’ controls for manag-       to strengthen contract administration              from our FY 2013 request.
    because for the most part, we continued to         ing, marketing, and disposing of owned             and oversight management controls and
    devote those resources to completing H.R.          real estate and made recommendations to                                                                   We continued internal quality assurance
                                                                                                          practices. We completed our 2012 work in
    2056 work and covering FDIC activities in          enhance control activities for these processes.                                                       efforts, including issuing our quality monitor-
                                                                                                          response to the Federal Information Security
    the resolution and receivership realms. As of      Given the Corporation’s responsibilities for                                                          ing and analysis summary of the OIG’s audit
                                                                                                          Management Act and made 14 recommenda-
    the end of the reporting period, however, we       billions of dollars in owned real estate, strong   tions to improve the effectiveness of the          organization for 2012. We oversaw contracts
    had planned for two assignments in this area.      controls are vital to successful management        FDIC’s information security program controls.      with qualified firms to provide audit and
    First we are examining the FDIC’s actions to       and disposition activities.                        In connection with the Dodd-Frank Act, we          evaluation services to the OIG to supple-
    address consumer protection violations and             H.R. 2056 work covering this goal area         issued the results of a fifth coordinated review   ment our efforts and provide additional
    deficiencies. Additionally, we are coordinat-      included an assessment of multiple aspects         of the status of the implementation activities     subject-matter expertise. We continued use
    ing with OIG counterparts in planning an           of the FDIC’s use of shared-loss agreements        of the Joint Implementation Plan prepared          of the Inspector General feedback form for
    assignment to examine the progress that            from the borrowers’ and institutions’ perspec-     by the Board of Governors of the Federal           audits and evaluations that focuses on overall
    the prudential regulators and the Consumer         tives, including the impact on the rate of loan    Reserve System, the FDIC, the Office of the        assignment quality elements, including time,
    Financial Protection Bureau have made              modifications and adjustments, the impact of       Comptroller of the Currency, and the Office        cost, and value.
    in establishing coordination for the many          the availability of credit, and the policies and   of Thrift Supervision. With respect to the            We encouraged individual growth through
    consumer protection responsibilities that the      procedures for terminating the agreements.         governmentwide financial reporting system,         professional development by supporting
    various parties carry out.                         Other matters reviewed as part of H.R. 2056        we verified that the FDIC’s summary general        individuals in our office pursuing certified
       Our Office of Investigations also supports      related to private investment in insured           ledger information agreed with summary             public accounting and other professional




8                                                                                                                                                                                                              9
     certifications. Our mentoring program is          statement to the FDIC Chairman regarding
     well underway and seeks to further develop        our efforts to meet internal control require-
     a strong cadre of OIG resources. We also          ments. We also attended meetings of the
     employed interns on a part-time basis to          Enterprise Risk Committee and other corpo-
     promote their development and assist us in        rate committees to further monitor risks at
     our work. We supported OIG staff members          the Corporation and tailor OIG work accord-
     attending graduate schools of banking to          ingly. We shared OIG perspectives with senior
     further their expertise and knowledge of          FDIC leadership and with the FDIC’s Chief Risk
     the complex issues in the banking industry        Officer, who is charged with assisting the FDIC   Significant Outcomes
     and supported staff taking FDIC leadership        Board and senior management in identifying        (October 2012–March 2013)
     training courses.                                 risks facing the Corporation and in setting the
                                                                                                         Audit and Evaluation Reports Issued                                                           7
         Our office continued to foster positive       Corporation’s risk management objectives
     stakeholder relationships by way of Inspector     and direction. In keeping with the Reports        Questioned Costs                                                                       $740,784
     General and other OIG executive meetings          Consolidation Act of 2000, we monitored           Nonmonetary Recommendations                                                                  27
     with senior FDIC executives; presentations        areas that we identified as management and
                                                                                                         Investigations Opened                                                                        43
     at Audit Committee meetings; congressional        performance challenges facing the Corpora-
                                                       tion for inclusion in its annual report. (See     Investigations Closed                                                                        38
     interaction; coordination with financial
     regulatory OIGs, other members of the Inspec-     pages 40-46.)                                     OIG Subpoenas Issued                                                                          4
     tor General community, other law enforce-                                                           Judicial Actions
     ment officials, and the U.S. Government                                                             	Indictments/Informations                                                                    46
     Accountability Office (GAO). The Inspector
     General served in key leadership roles as the                                                       	Convictions                                                                                 66
     Chair of the Council of the Inspectors General                                                      	Arrests                                                                                     28
     on Integrity and Efficiency Audit Committee;                                                        OIG Investigations Resulted in:
     Vice Chair of the Council of Inspectors General
                                                                                                         	   Fines of                                                                            $45,000
     on Financial Oversight, as established by
     the Dodd-Frank Act; and as a Member of the                                                          	   Restitution of                                                                 $145,302,654
     Comptroller General’s Advisory Council on                                                           	   Asset Forfeitures of                                                             $26,562,679
     Government Auditing Standards. Senior OIG
                                                                                                         Total                                                                              $171,910,333
     executives were speakers at a number of
     professional organization and government                                                            Cases Referred to the Department of Justice (U.S. Attorneys)                                 38
     forums, for example those sponsored by the                                                          Cases Referred to FDIC Management                                                             0
     Federal Financial Institutions Examination
                                                                                                         Proposed Regulations and Legislation Reviewed                                                11
     Council, Department of Justice, American
     Conference Institute, Federal Audit Executive                                                       Proposed FDIC Policies Reviewed                                                               8
     Council, and international organizations                                                            Responses to Requests Under the Freedom of Information Act (FOIA) or Privacy Act             11
     sponsored by the State Department. The OIG                                                          (including one FOIA appeal)
     participated in corporate diversity events and
     on the Chairman’s Diversity Advisory Council.
     We continued to use our public inquiry intake
     system to handle communications with the
     public and maintained and updated the OIG
     Web site to respond to the public and provide
     easily accessible information to stakeholders
     interested in our office and the results of our
     work.
         In the area of risk management, in connec-
     tion with SAS 99 and the annual audit of the
     FDIC’s financial statements, we provided
     comments on the risk of fraud at the FDIC to
     GAO. We provided the OIG’s annual assurance




10                                                                                                                                                                                                          11
     Strategic Goal 1: The
     OIG Will Assist the FDIC to
     Ensure the Nation’s Banks
     Operate Safely and                                                                                  the period January 1, 2012 through Decem-               The OIG’s Office of Investigations works
     Soundly                                                                                             ber 31, 2013, and $50 million thereafter. The       closely with FDIC management in RMS and
                                                                                                         FDIC OIG performs the review if the FDIC is         the Legal Division to identify and investigate
                                                                                                         the primary regulator of the institution. The       financial institution crime, especially various
                                                                                                         Department of the Treasury OIG and the              types of bank fraud. OIG investigative efforts
         The Corporation’s supervision program        focusing resources on the bank’s highest risks.    OIG at the FRB perform reviews when their           are concentrated on those cases of most
     promotes the safety and soundness of FDIC-       Part of the FDIC’s overall responsibility and      agencies are the primary regulators. These          significance or potential impact to the
     supervised insured depository institutions.      authority to examine banks for safety and          reviews identify what caused the material loss      FDIC and its programs. The goal, in part, is
     The FDIC is the primary federal regulator for    soundness relates to compliance with the           and evaluate the supervision of the federal         to bring a halt to the fraudulent conduct
     approximately 4,460 FDIC-insured, state-         Bank Secrecy Act, which requires financial         regulatory agency (including compliance             under investigation, protect the FDIC and
     chartered institutions that are not members of   institutions to keep records and file reports on   with the Prompt Corrective Action require-          other victims from further harm, and assist
     the Board of Governors of the Federal Reserve    certain financial transactions. An institution’s   ments of the FDI Act), and generally propose        the FDIC in recovery of its losses. Pursuing
     System (FRB)—generally referred to as “state     level of risk for potential terrorist financing    recommendations to prevent future failures.         appropriate criminal penalties not only serves
     non-member” institutions. Historically, the      and money laundering determines the neces-         Importantly, under the Dodd-Frank Act,              to punish the offender but can also deter
     Department of the Treasury [the Office of        sary scope of a Bank Secrecy Act examination.      the OIG is now required to review all losses        others from participating in similar crimes.
     the Comptroller of the Currency (OCC) and                                                           incurred by the DIF under the thresholds to         Our criminal investigations can also be of
                                                          The passage of the Dodd-Frank Act
     the Office of Thrift Supervision (OTS)] or the                                                      determine (a) the grounds identified by the         benefit to the FDIC in pursuing enforcement
                                                      brought about significant organizational
     FRB has supervised other banks and thrifts,                                                         state or federal banking agency for appoint-        actions to prohibit offenders from continued
                                                      changes to the FDIC’s supervision program.
     depending on the institution’s charter. The                                                         ing the Corporation as receiver and (b)             participation in the banking system. When
                                                      That is, the FDIC Board of Directors approved
     winding down of the OTS under the Dodd-                                                             whether any unusual circumstances exist that        investigating instances of financial institution
                                                      the establishment of an Office of Complex
     Frank Wall Street Reform and Consumer                                                               might warrant an in-depth review of the loss.       fraud, the OIG also defends the vitality of the
                                                      Financial Institutions (OCFI) and a Division
     Protection Act (Dodd-Frank Act) resulted in                                                         Although the number of failures continues to        FDIC’s examination program by investigating
                                                      of Depositor and Consumer Protection, and
     the transfer of supervisory responsibility for                                                      decline, the OIG will conduct and report on         associated allegations or instances of criminal
     about 60 state-chartered savings associa-        the Division of Supervision and Consumer
                                                      Protection became the Division of Risk             material loss reviews and in-depth reviews          obstruction of bank examinations and by
     tions to the FDIC, and these institutions are                                                       of failed FDIC-supervised institutions, as          working with U.S. Attorneys’ Offices to bring
     considered small and have been absorbed          Management Supervision (RMS). OCFI is focus-
                                                      ing on overseeing bank holding companies           warranted, and continues to review all failures     these cases to justice.
     into the FDIC’s existing supervisory program.                                                       of FDIC-supervised institutions for any
     About 670 federally chartered savings            with more than $100 billion in assets and their                                                            The OIG’s investigations of financial insti-
                                                                                                         unusual circumstances.
     associations were transferred to the OCC.        corresponding insured depository institutions.                                                         tution fraud historically constitute about 90
     As insurer, the Corporation also has back-up     OCFI is also responsible for non-bank finan-           The number of institutions on the FDIC’s        percent of the OIG’s investigation caseload.
     examination authority to protect the interests   cial companies designated as systemically          “Problem List” as of December 31, 2012 was          The OIG is also committed to continuing its
     of the Deposit Insurance Fund (DIF) for 2,623    important by the Financial Stability Oversight     651, indicating a possibility of more failures      involvement in interagency forums address-
     national banks, state-chartered banks that       Council, of which the FDIC is a voting member.     to come and an additional asset disposition         ing fraud. Such groups include national and
     are members of the FRB, and those savings        OCFI and RMS coordinate closely on all super-      workload. Total assets of problem institutions      regional bank fraud, check fraud, mortgage
     associations now regulated by the OCC.           visory activities for insured state non-member     were $233 billion. Importantly, however, the        fraud, cyber fraud, identity theft, and anti-
                                                      institutions that exceed $100 billion in assets,   number of institutions on the Problem List          phishing working groups. Additionally, when
          The examination of the institutions that                                                       and corresponding assets continues to trend
                                                      and RMS is responsible for the overall Large                                                           possible, the OIG engages in industry and
     it regulates is a core FDIC function. Through                                                       downward.
                                                      Insured Depository Institution program.                                                                other professional outreach efforts to keep
     this process, the FDIC assesses the adequacy
                                                          Prior to passage of the Dodd-Frank Act, in         While the OIG’s audits and evaluations          financial institutions and others informed
     of management and internal control systems
     to identify, measure, monitor, and control       the event of an insured depository institution     address various aspects of the Corporation’s        on fraud-related issues and to educate them
     risks; and bank examiners judge the safety       failure, the Federal Deposit Insurance (FDI)       supervision and examination activities,             on the role of the OIG in combating financial
     and soundness of a bank’s operations. The        Act required the cognizant OIG to perform          through their investigations of financial           institution fraud.
     examination program employs risk-focused         a review when the DIF incurs a material loss.      institution fraud, the OIG’s investigators also        To assist the FDIC to ensure the nation’s
     supervision for banks. According to examina-     Under the FDI Act, a loss was considered           play a critical role in helping to ensure the       banks operate safely and soundly, the OIG’s
     tion policy, the objective of a risk-focused     material to the insurance fund if it exceeded      nation’s banks operate safely and soundly.          2013 performance goals are as follows:
     examination is to effectively evaluate the       $25 million and 2 percent of the failed            Because fraud is both purposeful and hard
                                                                                                         to detect, it can significantly raise the cost of   •	Help ensure the effectiveness and efficiency
     safety and soundness of the bank, includ-        institution’s total assets. With the passage of                                                          of the FDIC’s supervision program.
     ing the assessment of risk management            the Dodd-Frank Act, the loss threshold was         a bank failure, and examiners must be alert
     systems, financial condition, and compliance     increased to $200 million through December         to the possibility of fraudulent activity in        •	Investigate and assist in prosecuting Bank
     with applicable laws and regulations, while      31, 2011, $150 million for losses that occur for   financial institutions.                               Secrecy Act violations, money laundering,
12                                                                                                                                                                                                              13
      terrorist financing, fraud, and other financial   required that the FDIC Inspector General and       more than 42 percent. Construction starts           earlier and greater supervisory attention
      crimes in FDIC-insured institutions.              the Comptroller General appear before the          remained partially complete and continued           to troubled institutions that failed. For its
                                                        Committee on Banking, Housing, and Urban           to detract from the quality of neighborhoods        part, among other initiatives associated with
                                                        Affairs of the Senate and the Committee on         and home values. Trillions of dollars of            resolutions, the FDIC reinstituted the use of
     OIG Work in Support of Goal 1                      Financial Services of the House of Representa-     household wealth had vanished, and almost           SLAs with acquiring institutions and took
         The OIG issued two reports during the          tives after publication of the study to discuss    18 million loans had faced foreclosure since        steps to promote private capital investments
     reporting period in support of our strategic       the results. The scope of the study, as defined    2007. Unemployment peaked at 10 percent             in failing institutions.
     goal of helping to ensure the safety and           in the legislation, was to include institutions    in October 2009 and remained stubbornly
                                                                                                                                                                  We provided a detailed presentation of our
     soundness of the nation’s banks. The first         regulated by the FDIC, FRB, and OCC.               high at the time of our study.
                                                                                                                                                              findings and conclusions for each of the topics
     report, our comprehensive report in response           In response to the legislation, our office         We reported that events leading to the         under the law’s eight matters. In addressing
     to H.R. 2056, takes a close look at a number of    initiated a series of assignments to address the   financial crisis and subsequent efforts to         these matters, we also made the following
     supervisory or examination practices affecting     issues outlined in H.R. 2056. In doing so, we      resolve it involved the dynamic interplay          observations:
     insured depository institutions, among other       addressed over 30 topics that fell under one of    of laws passed by the Congress, regulatory
                                                                                                                                                              •	The FDIC’s resolution methods—including
     things. A second report we issued examines         the following eight matters:                       rules, agency-specific policies and practices,
                                                                                                                                                                the SLAs that we studied—were market-
     acquisition, development, and construction                                                            and the real estate and financial markets in
                                                        •	Shared-loss agreements (SLA),                                                                         driven. Often, failing banks with little or no
     loan concentrations—oftentimes a major                                                                ways that are continuing to play out. In that
     contributing cause of institution failures—to      •	Significance of losses at institutions that                                                           franchise value and poor asset quality did not
                                                                                                           regard, our study indicated the following:
     identify factors that may have helped certain        failed,                                                                                               attract sufficient interest from viable bidders
                                                                                                           •	The markets drove behaviors that were not          to enable the FDIC to sell the banks without
     banks mitigate the risks historically associated   •	Examiner implementation of appraisal               always prudent. Banks expanded lending to
     with these types of concentrations during                                                                                                                  a loss-share guarantee. The FDIC used SLAs
                                                          guidelines,                                        keep pace with rapid growth in construc-
     periods of economic stress.                                                                                                                                to keep failed bank assets in the banking
                                                        •	Examiner assessment of capital adequacy            tion and real estate development, rising           sector, support failed bank asset values, and
         From an investigative perspective, in            and private capital investment in failing          mortgage demands, and increased competi-           preserve the solvency of the DIF. The FDIC has
     support of ensuring the safety and soundness         institutions,                                      tion. Many of the banks that failed did so         established controls over its SLA monitoring
     of the nation’s banks, we have pursued cases                                                            because management relaxed underwriting            program, which help protect the FDIC’s inter-
                                                        •	Examiner implementation of loan workout
     involving fraud in both open and closed                                                                 standards and did not implement adequate           ests, promote loan modifications, and require
                                                          guidance,
     institutions. Results of such selected cases                                                            oversight and controls. For their part, many       equal treatment of SLA and legacy loans.
     are described below. As in the past, we also       •	Application and impact of formal enforce-          borrowers who engaged in commercial or             We did find, however, that the FDIC should
     discuss a number of our mortgage-fraud               ment orders,                                       residential lending arrangements did not           place additional emphasis on monitoring
     related investigations. Importantly, our           •	Impact of FDIC policies on investments in          always have the capacity to repay loans and        commercial loan extension decisions to
     results would not be possible without the            institutions, and                                  pursued many construction projects without
                                                                                                                                                                ensure that acquiring institutions do not
     collaboration and assistance of our colleagues                                                          properly considering the risks involved.
                                                        •	The FDIC’s handling of private equity                                                                 inappropriately reject loan modification
     at the FDIC and our law enforcement partners                                                            Ultimately, these loans created significant
                                                          company investments in institutions.                                                                  requests as SLAs approach termination. In
     throughout the country.                                                                                 losses for the institutions involved and often
                                                           We issued a 200+ page report in January                                                              addition, we concluded that the FDIC needed
                                                                                                             left the FDIC with the challenge of manag-
     Comprehensive Study on the Impact of the           2013, and the Inspector General subse-                                                                  to formulate a better strategy for mitigating
                                                                                                             ing and disposing of troubled assets.
     Failure of Insured Depository Institutions         quently testified, as called for in the law,                                                            the impact of impending portfolio sales and
                                                                                                           •	In response to unprecedented circum-               SLA terminations on the DIF so that the FDIC
         As we discussed in our last semiannual         before the House Financial Services Commit-
                                                                                                             stances, the regulators generally fulfilled        will be prepared to address the potentially
     report, our most recent priority has been          tee, Subcommittee on Financial Institutions
                                                                                                             their supervisory and resolution responsi-         significant volume of asset sale requests.
     work conducted in connection with Public           and Consumer Credit, on March 20, 2013.
                                                                                                             bilities as defined by statutes, regulations,
     Law 112-88, or H.R. 2056. On January 3,                By way of context for the observations                                                            •	The majority of community banks failed as a
                                                                                                             accounting standards, and interagency
     2012, President Obama signed H.R. 2056, as         and recommendations that we made, our                                                                   result of aggressive growth, asset concentra-
                                                                                                             guidance in place at the time. In addition,
     amended. This legislation required that the        report noted that the financial crisis had                                                              tions, poor underwriting, and deficient credit
                                                                                                             the regulators reacted to a rapidly changing
     FDIC Inspector General conduct a compre-           devastating impacts on the banking industry,         economic and financial landscape by estab-         administration coupled with declining real
     hensive study on the impact of the failure of      businesses, communities, and consumers.              lishing and revising supervisory policies          estate values. These factors led to write-
     insured depository institutions and submit a       At the time of our review, over 400 institu-         and procedures to address key risks facing         downs and charge-offs on delinquent and
     report to the Congress not later than 1 year       tions had failed and several of the country’s        the industry. While not a focus of this study,     non-performing real estate loans as opposed
     after the date of enactment. The report was        largest institutions had required government         our report does acknowledge, however,              to examiner-required write-downs or fair
     to contain the results of the study and any        intervention to remain solvent. Commercial           material loss review findings that showed          value accounting losses.
     recommendations. The legislation further           real estate collateral values had fallen by          the FRB, OCC, and FDIC could have provided       •	The regulators have longstanding policies
14                                                                                                                                                                                                                15
      for classifying problem assets, monitor-               While the regulators generally imple-          acquisition, development, and construction        of April 2011. We focused attention on a
      ing appraisal programs, assessing capital          mented their policies appropriately, our study     (ADC) loan concentrations that did not fail       sample of 18 of those institutions that had
      adequacy, evaluating commercial real               identified certain areas for improvement and       during the recent economic downturn. ADC          ADC concentrations of 300 percent or more.
      estate loan workouts, and administering            issues warranting management attention. In         loans are considered the riskiest type of         We took this approach because, in our view,
      enforcement actions, when warranted. The           the interest of strengthening the effectiveness    commercial real estate lending. During the        the experience of these 18 institutions was
      regulators also have processes and controls,       of certain supervisory activities and helping      recent financial crisis, FDIC analysis shows      unique and allowed us to readily compare
      training programs, and job aids to help            ensure the success of the FDIC’s ongoing           that failed institutions had concentrations of    their practices to those institutions with ADC
      ensure examiner compliance and consis-             resolution efforts, we made seven recom-           ADC loans to total assets that were roughly       concentrations that failed. Notably, we did
      tency. We found that examiners generally           mendations. Five were addressed specifically       three times the average of concentrations of      not identify a significant number of banks
      followed relevant policies and implemented         to the FDIC and two were directed to the three     non-failed institutions.                          with high concentrations in 2007 that were in
      them appropriately. For example, examiners         regulators. These recommendations involved              Our objective was to study the character-    satisfactory condition in 2011. We believe this
      usually did not classify as loss loans that the    the following areas:                               istics and supervisory approaches for FDIC-       is reflective of how difficult it is for institutions
      institution claimed were paying as agreed          •	SLA Program. We made recommendations             supervised institutions that had significant      with exceedingly high ADC concentrations
      without justification, nor did they question         related to developing additional controls for    ADC loan concentrations in December 2007          to mitigate the concentration risk during an
      or reduce the appraised values of assets             monitoring acquiring institutions’ commercial    and were not considered to be problem banks       economic downturn. Perhaps not surprisingly,
      securing such loans. However, examiners did          loan modification efforts and developing         as of April 2011. In initiating this study, we    bankers we interviewed characterized the
      not always document the procedures and               a more formal strategy for mitigating the        were interested in identifying factors that may   Board’s and management’s risk appetite to be
      steps that they performed to assess institu-         impact of impending portfolio sales and SLA      have helped banks mitigate the risks histori-     conservative or moderate. These same bankers
      tions’ appraisal and workout programs. We            terminations on the DIF.                         cally associated with ADC concentrations          implemented many of the key elements of the
      also noted that the regulators had different                                                          during periods of economic stress.                risk management framework that regulators
      approaches to enforcement actions, particu-        •	Appraisals and Workouts. We made several                                                           have said are needed to manage ADC concen-
                                                           recommendations related to clarifying                To evaluate the characteristics of the
      larly related to non-problem banks.                                                                   banks included in our study, we reviewed          trations. Additionally, bankers we spoke
                                                           how examiners should review institutions’                                                          to indicated that they limited speculative
     •	The FDIC has investment-related policies in         appraisal programs and strengthening             key financial ratios for the FDIC-supervised
       place to protect the DIF and to ensure the                                                           institutions meeting the criteria of our study—   lending, loan participations, and out-of-area
                                                           examiner documentation requirements to                                                             lending. Finally, a number of bankers were
       character and fitness of potential investors.       more clearly define examination methodolo-       generally in satisfactory condition and having
       These policies are largely based in statute. By                                                      concentrations that regulators considered to      quick to point out that their market areas
                                                           gies and procedures performed to assess                                                            were less impacted by the economic decline.
       their nature, such policies are going to have       institutions’ appraisal and workout programs.    be significant—and the 214 FDIC-supervised
       an impact on investments in institutions.                                                            institutions that failed between January          As a result of these factors, banks in our study
                                                           These recommendations should help to                                                               did not experience significant losses from
       The FDIC approved most change-in-control            assure agency management that examiners          2007 and April 2011. Doing so allowed us to
       and merger applications, although approval                                                           compare and contrast the two groups. We also      their ADC portfolio and managed to maintain
                                                           are consistently applying relevant guidance.                                                       stable capital positions even with a steep and
       rates were lower for states such as California,                                                      contacted bank officials for a sample of the
       Florida, and Nevada that were heavily             •	Enforcement Orders. We recommended               institutions and discussed their strategies for   prolonged economic decline.
       impacted by the financial crisis. The FDIC has      that the regulators study differences between    managing ADC concentrations and factors,              We also found that the supervisory
       policies and procedures for certain aspects         the types of enforcement actions that are        which in their view, allowed their institutions   approach and level of supervisory attention
       of the review of private capital investors, and     used by the regulators and the timing of         to remain fundamentally sound or to success-      for 23 turn-around banks we sampled were
       the FDIC generally followed those policies.         such actions to determine whether there are      fully overcome the risk and losses associated     generally consistent with the FDIC’s super-
       Purchases of failed institutions by private         certain approaches that have proven to be        with the concentrations. To evaluate the          visory practices and policies and similar to
       capital investors accounted for 10 percent          more effective in mitigating risk and correct-   FDIC’s supervisory approach, we reviewed          the approach for banks that ultimately failed.
       of total failed bank assets acquired. Finally,      ing deficiencies that should be implemented      the supervisory documents, including any          That is, as economic conditions declined and
       we identified instances where the FDIC did          by all three regulators.                         enforcement actions taken, for a sample of        banks’ financial condition began to weaken,
       not accept proposed open bank invest-                The regulators concurred with our               banks that we refer to as “turnaround” banks.     the FDIC’s supervisory attention increased and
       ments and instead closed an institution.          recommendations and proposed actions               That is, banks with significant ADC concentra-    supervisory actions were pursued. However,
       However, in each case, we found that the          that adequately address the intent of our          tions in December 2007, some level of super-      we observed that the approach yielded a
       FDIC identified concerns with the proposed        recommendations.                                   visory concern between 2007 and 2010, and         better outcome—stable or improved exami-
       investment related to safety and soundness                                                           improved supervisory ratings as of April 2011.    nation ratings—because turn-around banks
       issues, proposed management, or proposed          Acquisition, Development, and Construc-                We identified 436 institutions that met       were responsive to supervisory actions and
       business plans, or determined that the            tion Loan Concentrations Study                     our criteria of having an ADC concentration       guidance and maintained or secured capital
       proposed transaction would not present the           We issued the results of our study of           of 100 percent or greater as of December          needed to absorb losses in response to regula-
       least loss option to the DIF.                     FDIC-supervised institutions with significant      2007 and were in satisfactory condition as        tory demands.
16                                                                                                                                                                                                                    17
         More specifically, we found that some           reviews of failed FDIC-supervised institutions.        was sentenced to serve 78 months in prison           prison to be followed by 1 year of supervised
     institutions with ADC concentrations were           We did not conduct any material loss reviews           to be followed by 5 years of supervised              release.
     able to weather the recent financial crisis         during the reporting period—that is reviews of         release for his role in a bank fraud and money          The actions of the owner of the firm and
     without experiencing a corresponding decline        institutions causing material losses to the DIF, as    laundering scheme. He was also ordered to           the mortgage company, along with the
     in their overall financial condition. The factors   defined by the Dodd-Frank Act. We did, however,        pay restitution of $2,612,083. Others involved      actions of co-conspirators impacted multiple
     that contributed to their survival validate the     complete 13 failed bank reviews of failed              in the scheme were also sentenced during the        financial institutions, including some that
     point that regulators have emphasized and           institutions with losses to the DIF of less than       reporting period.                                   eventually failed.
     reiterated for years—a well-informed and            the threshold outlined in the Dodd-Frank Act.              From approximately October 2006 through              Source: FDIC Division of Resolutions and Receiverships
     active Board, strong management, sound              These reviews are listed in appendix 2. None of        January 2008, in the course of operating the        (DRR). Responsible Agencies: This was a joint investigation
     credit administration and underwriting              these reviews identified unusual circumstances                                                             by the FDIC OIG, the Federal Bureau of Investigation (FBI),
                                                                                                                investment firm, he and others made oral            and the Internal Revenue Service, Criminal Investigation
     practices, and adequate capital are important       warranting additional OIG work.                        and written misrepresentations to various           Division (IRS-CI). This case was prosecuted by the U.S.
     in managing ADC concentrations in a safe                                                                   financial institutions in order to obtain loans     Attorney’s Office for the District of Kansas.
     and sound manner. In addition, the banks in         Successful OIG Investigations Uncover
                                                                                                                to fund their business operations. He and his
     our study did not rely on brokered deposits         Financial Institution Fraud
                                                                                                                co-conspirators created fraudulent contrac-
                                                                                                                                                                    Banker Sentenced
     to fund growth, and geographic location                 As mentioned previously, the OIG’s Office          tor invoices, used checks from closed bank             On January 16, 2013, a former senior
     factored into the degree of ADC loan losses.        of Investigations’ work focuses largely on fraud       accounts, and checks that were never actually       operations manager with Minnesota Bank,
     Ultimately, the strategic decisions and disci-      that occurs at or impacts financial institutions.      negotiated to fraudulently obtain a total of        Marshall, Minnesota, was sentenced to 24
     plined, values-based practices and actions          The perpetrators of such crimes can be those           $2.2 million for the purported purpose of           months in prison to be followed by 5 years of
     taken by the Boards and management helped           very individuals entrusted with governance             rehabilitating homes for resale.                    supervised release. She was also ordered to
     to mitigate and control the institutions’ overall   responsibilities at the institutions—directors                                                             pay $1,013,018 in restitution.
                                                                                                                    From approximately October 2005 through
     ADC loan risk exposure and allowed them to          and bank officers. In other cases, individuals         January 2007, in order to reduce the debt of            From 1998 until June 2012, the former
     react to a changing economic environment.           providing professional services to the banks,          the investment firm and qualify to purchase         banker embezzled more than $1 million
     Unlike many failed banks that saw their capital     others working inside the bank, and customers          more property, friends and family were              from the institution by taking funds from
     evaporate rapidly because of the losses associ-     themselves are principals in fraudulent schemes.       recruited to purchase some of the “rehabili-        customers’ certificates of deposit. She created
     ated with their ADC portfolios, the banks in           The cases discussed below are illustrative of       tated” properties from the firm. These proper-      fictitious certificates of deposit documents,
     our study experienced comparatively fewer           some of the OIG’s most important investigative         ties were intended for investment or rental         1099-INT statements, and account summary
     losses and were able to maintain stable capital     success during the reporting period. These             purposes, but in most cases the borrower            statements to conceal her actions. In her plea
     positions.                                          cases reflect the cooperative efforts of OIG           would not have qualified to purchase the            agreement, she admitted that she embezzled
         Our report notes that the FDIC has to           investigators, FDIC divisions and offices, U.S.        properties. To ensure that the “investors”          the money for her personal use, primarily to
     date, and must continue to make certain,            Attorneys’ Offices, and others in the law enforce-     qualified to purchase the properties, the           pay off shopping debts. The bank ultimately
     that lessons learned associated with ADC            ment community throughout the country.                 investment firm used the mortgage company           repaid the customers who had been victim-
     concentrations become ingrained in day-to-                                                                 as the broker to falsify loan applications and      ized by the scheme by paying out more than
                                                             A number of our cases during the reporting
     day supervisory activities and that placing                                                                other supporting documents to obtain 51             $1 million.
                                                         period involve bank fraud, wire fraud, embezzle-
     greater emphasis on risk management                 ment, identity theft, and mortgage fraud. Many         loans totaling approximately $6.6 million.               Responsible Agencies: The FDIC OIG conducted the
                                                                                                                                                                    investigation with assistance from the FBI and the Marshall
     practices for institutions with elevated risk       involve former senior-level officials and custom-          Others involved also received stiff penalties   Police Department. The case is being prosecuted by the U.S.
     profiles is sustained regardless of the health      ers at financial institutions who exploited            for their roles in the bank fraud and money         Attorney’s Office for the District of Minnesota.
     of the economy or banking industry or the           internal control weaknesses and whose                  laundering scheme, as follows:
     political appetite for financial regulation.        fraudulent activities harmed the viability of the                                                          Former Bank Officer and Customer
                                                                                                                •	The investment firm’s director of operations      Sentenced in Bank Bribery Case
     We did not make recommendations in this             institutions and ultimately contributed to losses        was sentenced to 15 months in prison to be
     report; however, we trust that the analysis         to the DIF. The OIG’s success in all such investiga-                                                           Two men were sentenced for their roles
                                                                                                                  followed by 5 years of supervised release.
     and conclusions of our study will benefit           tions contributes to ensuring the continued                                                                related to bribing a bank officer in order to
                                                                                                                  He was also ordered to pay restitution of
     the Corporation and assist in management’s          safety and soundness of the nation’s banks.                                                                obtain a bank loan. One of the individuals—
                                                                                                                  $1,380,414.
     continuous efforts to have an efficient and                                                                                                                    a banker at ANB Financial, N.A., Fayetteville,
     effective supervisory program that protects         Successful Bank Fraud Cases                            •	A loan officer and former president of the        Arkansas, was sentenced to 24 months in
     depositors and the DIF.                                                                                      mortgage company was sentenced to 24              prison, 3 years of supervised release, and
                                                         Multiple Subjects Sentenced for Bank                     months in prison to be followed by 2 years of     ordered to pay a $10,000 fine. The second
     Failed Bank-Related Work                            Fraud                                                    supervised release.                               individual, a businessman, was sentenced to
         To a far lesser extent than during the height       During the reporting period, the owner of          •	Another loan officer of the mortgage              14 months in prison, 3 years of supervised
     of the financial crisis, we continued to conduct    an investment firm and a mortgage company                company was sentenced to 15 months in             release, and fined $10,000.
18                                                                                                                                                                                                                                19
         According to documents filed in the case,                 personally from the loan. The former officer                     as collateral for the loan. He reported that the             records, the businessman obtained loans
     the businessman—a manager of a sports                         misapplied approximately $662,045 of bank                        accounts receivable totaled in excess of                     simply by sending an e-mail to a bank insider
     management firm—conspired with the officer                    funds. In 2008, he devised and participated                      $10.5 million when, in fact, he knew that the                asking for money to purchase a Hummer or
     of ANB Financial, N.A., to pay the ANB bank                   in a bank fraud scheme to raise capital by                       report included speculative and unearned                     beach-front property.
     official $60,000 in order to obtain approval of               making loans totaling $20,145,979 to eight                       business for which no receivable was due to                     Court records indicate that in November
     a $6,200,000 loan in order to develop eight                   bank customers in order for them to use                          his business. The business owner defaulted on                2008, the bank sent an application to the
     acres of land. Additionally, the bank officer                 $4,310,215 of the loan proceeds to purchase                      the loan in September 2008. In January 2009,                 Federal Reserve requesting approximately
     misapplied $82,500 out of the loan proceeds                   shares of bank stock; however, he failed to                      he informed the banks that only approxi-                     $28 million from the Troubled Asset Relief
     of the sports management firm to an aviation                  disclose how the loan proceeds would be                          mately $100,000 of his company’s accounts                    Program (TARP). Based on concerns about the
     company for the rental of a private jet aircraft.             used and did not disclose the deteriorating                      receivable was collectible.                                  health of the bank, the Federal Reserve later
     The $60,000 bribe was paid in Las Vegas,                      condition of the bank to its customers. The                          Source: Referral from the FDIC DRR. Responsible          requested that the bank withdraw its TARP
     Nevada, after the bank officer and business-                  former officer also deposited $160,000 into                      Agencies: This investigation was conducted by the FDIC OIG
                                                                                                                                    and the FBI. The investigation was prosecuted by the U.S.    application, which the bank did.
     man traveled there on the chartered plane.                    his own account at the bank.                                     Attorney’s Office for the Eastern District of Missouri.         In July 2010, the bank entered into an
         The events related to the bribery trans-                      Each of the counts against the former                                                                                     agreement with the Federal Reserve and other
     pired during 2007, and ANB later failed on                    officer carries a penalty of not more than 30                    Hampton Roads Businessman Sentenced
                                                                                                                                                                                                 regulators that specifically prohibited the bank
     May 9, 2008.                                                  years in federal prison and a fine of up to                      to 168 Months for Elaborate Bank and
                                                                                                                                                                                                 from extending, renewing, or restructuring
         On July 31, 2012, the bank officer pleaded                $1,000,000. He also faces one count of money                     Tax Fraud Involving the Bank of the
                                                                                                                                                                                                 any loans to specific troubled borrowers,
     guilty to one count of misapplication of bank                 laundering. If convicted of money laundering                     Commonwealth
                                                                                                                                                                                                 which included the businessman and his
     funds and one count of conspiracy to solicit                  he faces not more than 20 years in federal                           A Hampton Roads businessman was                          business partner.
     funds with the intent to influence a business                 prison and a fine of up to $500,000, or twice                    sentenced to 168 months in prison and 3
     transaction with a financial institution. On                  the value of the property involved in the                                                                                         In addition to the fraudulent conduct
                                                                                                                                    years of supervised release for carrying out
     that same day, the businessman pleaded                        transaction, whichever is greater.                                                                                            involving the Bank of the Commonwealth,
                                                                                                                                    elaborate and sophisticated fraud schemes
     guilty to one count of conspiracy to pay a                                                                                                                                                  the businessman was sentenced for a
                                                                        Responsible Agencies: This is a joint investigation with    that contributed to the failure of the Bank of
     bribe to a bank officer in order to influence                 the FDIC OIG, FBI, and IRS-CI. The case is being prosecuted by                                                                separate scheme aimed at illegally profiting
                                                                                                                                    the Commonwealth and defrauded investors
     a business transaction with a financial
                                                                   the U.S. Attorney’s Office for the District of Colorado.                                                                      from historic rehabilitation tax credits. In
                                                                                                                                    and the government of millions of dollars. The
     institution.                                                                                                                                                                                this scheme, he and his business partner
                                                                   Business Owner Sentenced for                                     businessman was also ordered to pay restitu-
                                                                                                                                                                                                 systematically falsified invoices for large
          Source: Request for assistance from the United States    Commercial Loan Fraud                                            tion of $32,020,067 jointly and severally with
     Attorney’s Office for the Western District of Arkansas and                                                                                                                                  construction projects and used them to apply
                                                                                                                                    his co-defendant—a business partner, whose
     referral from DRR. Responsible Agencies: The FDIC OIG             On March 14, 2013, the owner of an                                                                                        for federal and state historic tax credits. They
     conducted the investigation with assistance from the                                                                           actions are also discussed below. He had
     FBI. The case was prosecuted by the U.S. Attorney’s Office,
                                                                   agricultural business was sentenced to serve                                                                                  had no personal use for the tax credits, but
                                                                                                                                    pleaded guilty on July 12, 2012 to conspiracy
     Western District of Arkansas.                                 14 months in prison to be followed by 60                                                                                      they instead sold them to investors in need of
                                                                                                                                    to commit wire fraud and conspiracy to
                                                                   months of supervised release and was ordered                                                                                  reducing their own tax liability.
     Former Officer of New Frontier Bank                                                                                            commit bank fraud.
                                                                   to pay restitution of $9,861,986 for his role in a                                                                                In total, corporate investors paid the two
     Pleads Guilty                                                 commercial loan fraud scheme. The restitution                        According to court records, from January
                                                                                                                                                                                                 businessmen approximately $8.7 million for
         A former officer of the now defunct New                   allocation is $7,889,589 to Peoples Bank &                       2008 through August 2011, he and his
                                                                                                                                                                                                 illegitimate tax credits. As a result, the federal
     Frontier Bank pleaded guilty in February 2013                 Trust Co., Troy, Missouri, and $1,972,397 to the                 business partner performed favors for insid-
                                                                                                                                                                                                 government suffered a loss of approximately
     to making false bank entries, misapplica-                     FDIC as receiver for Corn Belt Bank and Trust                    ers at the Bank of the Commonwealth in
                                                                                                                                                                                                 $6.2 million and the Commonwealth of
     tion of bank funds, bank fraud, and money                     Company, Pittsfield, Illinois. Corn Belt Bank was                exchange for preferential lending treatment
                                                                                                                                                                                                 Virginia suffered a loss of approximately
     laundering. New Frontier Bank was closed on                   closed on February 13, 2009; Peoples Bank &                      and assisted insiders in concealing the extent
                                                                                                                                                                                                 $6.3 million.
     April 10, 2009, by the Colorado Division of                   Trust Co. is regulated by the FRB.                               of the bank’s non-performing assets by
     Banks, and the FDIC was appointed receiver.                                                                                    purchasing bank-owned property.                                  The businessman’s partner pleaded guilty
                                                                       In May 2008, the business owner                                                                                           for his role in these fraud schemes on April 12,
         While employed at New Frontier Bank, the                  knowingly submitted false information                                At the time the bank failed on Septem-
                                                                                                                                                                                                 2012, and was sentenced on September 26,
     former officer made a false entry in connec-                  regarding his company’s accounts receivable                      ber 23, 2011, he and his business partner
                                                                                                                                                                                                 2012, to 138 months in prison.
     tion with the collateral for a $5,583,500 loan                in order to obtain financing from Peoples Bank                   were the bank’s largest lending relation-
                                                                                                                                                                                                      Source: This investigation was initiated based on a
     to two individuals. He failed to disclose that a              & Trust Co. for a $10 million line of credit of                  ship—together, the partners guaranteed                       request for assistance from the Special Inspector General
     certificate of deposit valued at $106,759 that                which Corn Belt Bank purchased a 20-percent                      approximately $41 million in loans. Almost all               for the Troubled Asset Relief Program (SIGTARP) and the FBI.
     the two individuals had pledged as collateral,                participation. Peoples Bank & Trust Co. had the                  of these loans were on an interest-only basis,               Responsible Agencies: This is a joint investigation with
                                                                                                                                                                                                 the FDIC OIG, FBI, IRS-CI, and SIGTARP. The case is being
     in fact belonged to another individual. He                    business owner execute a security agreement                      and the two men were regularly permitted to                  prosecuted by the U.S. Attorney’s Office for the Eastern
     also did not disclose that he would benefit                   pledging his company’s accounts receivable                       overdraw their accounts. According to court                  District of Virginia.
20                                                                                                                                                                                                                                                              21
     North Carolina Developer Pleads Guilty               indictment alleged that his scheme left various                  the co-conspirators to act as a straw buyer to       of supervised release. In addition, a money
     in Real Estate Investment Fraud Scheme               neighborhoods in North Carolina and Virginia                     obtain at least 10 mortgages. The mortgage           judgment in the amount of $626,316 was
         On March 18, 2013, a North Carolina              blighted with boarded up and dilapidated                         firm’s loan officers obtained mortgage loans         entered against him pursuant to a consent
     developer pleaded guilty to conspiracy to            homes, many of which were ultimately                             for the sham deals by submitting fraudulent          order of forfeiture.
     commit bank and wire fraud. A number of his          demolished as uninhabitable.                                     applications to banks and lenders, and using        •	An attorney was sentenced to 5 years of
     co-conspirators previously pleaded guilty and            Responsible Agencies: Joint investigation by the FDIC        fraudulent representations about the straw            supervised release. A money judgment in
                                                          OIG, HUD OIG, U.S. Postal Inspection Service, and FBI. The       buyers’ net worth, employment, income, and
     are awaiting sentencing.                             case is being prosecuted by the U.S. Attorney’s Office for the                                                         the amount of $6,554,842 was also entered
                                                          Eastern District of North Carolina.                              their plans to live in the properties. In support     against her pursuant to a preliminary order of
         The developer and others conspired to                                                                             of the loan applications, co-conspirators
     make false statements on various HUD-1 state-                                                                                                                               forfeiture.
                                                          OIG Mortgage Fraud Cases                                         created false documents, including fake W-2s
     ments and residential real estate appraisal                                                                           and pay stubs, and provided false verifications     •	Another attorney was sentenced to serve 3
     reports associated with properties purchased             Our office has successfully investigated                                                                           years in prison to be followed by 2 years of
                                                          a number of mortgage fraud cases over the                        of employment falsely claiming to employ
     or sold by him, his company, or other affiliated                                                                      some of the straw buyers.                             supervised release and was ordered to pay
     investors or entities. The developer operated        past 6 months, several of which are described                                                                          restitution of $3,802,250.
     various real estate companies. Through               below. Perpetrators of these mortgage                                The attorney co-conspirators falsified
                                                          schemes are receiving stiff penalties and                        documents given to lenders in order to              •	A third attorney was sentenced to serve 2
     these companies, he solicited investors and                                                                                                                                 years in prison to be followed by 3 years of
     promised them financial gain through the             restitution orders. Our involvement in such                      obtain home equity lines of credit, or second
                                                          cases is often the result of our participation                   mortgages, on properties purchased through            supervised release. In addition, a money
     purchase, renovation, and resale of distressed                                                                                                                              judgment in the amount of $7,606,500 was
     residential real estate primarily located in         in a growing number of mortgage fraud task                       straw buyers. The attorneys also submitted
                                                          forces. Mortgage fraud has taken on new                          false statements to the lenders about how             entered against him pursuant to a consent
     low-income neighborhoods. He was able                                                                                                                                       order of forfeiture.
     to carry out his real estate investment fraud        characteristics in the recent economic crisis                    they were distributing the loan proceeds, and
     with the assistance of a licensed real estate        as perpetrators seek to take advantage of an                     made huge illicit payments, typically totaling      •	An individual who claimed to be an attorney,
     appraiser and two employees of one of his            already bad situation, as illustrated in several                 tens of thousands of dollars or more per trans-       but who had been disbarred previously, was
     companies, one of whom was a closing                 mortgage fraud cases described below. Such                       action, from the loan proceeds to members             sentenced to serve 46 months in prison to
     attorney. He and his co-conspirators falsified       illegal activity can cause financial ruin to                     of the conspiracy, including each other. Some         be followed by 5 years of supervised release;
     and manipulated data to ensure that the              homeowners and local communities. It can                         members of the conspiracy funneled fraud              restitution will be ordered at a later date.
     real estate mortgage loans were approved             further impact local housing markets and                         proceeds through shell corporations, which               Source: This investigation was initiated based on a
     and funded by lenders. By generating false           the economy at large. Mortgage fraud can                         they owned and controlled, and periodically         referral from the FBI through the Mortgage Fraud Task Force.
                                                                                                                                                                               Responsible Agencies: This is a joint investigation with the
     appraisal documents, the co-conspirators             take a variety of forms and involve multiple                     also used these shells to quickly resell or flip    FDIC OIG, FBI, and HUD OIG. The case is being prosecuted
     were able to receive over $7 million in loan         individuals. The following examples illustrate                   properties to other straw purchasers at higher      by the U.S. Attorney’s Office for the Southern District of New
     proceeds in connection with the purchase and         the nature of these fraudulent activities and                    prices in order to obtain new mortgages on          York.

     sale of the properties. The scheme resulted in       the actions taken to stop them.                                  the same property, restarting the fraudulent
                                                                                                                           scheme. As a result of the fraud, scores of         Former Bank Employee and Co-Conspir-
     lenders issuing loans that ultimately defaulted.     Sentencings in Multimillion Dollar                                                                                   ators Sentenced in Mortgage Fraud
                                                                                                                           mortgages went into default and many of the
         During the course of the alleged scheme,         Mortgage Fraud Case                                              properties went into foreclosure. The scheme        Scheme
     as stated in the indictment, the developer                From 2004 to 2009, the president and                        involved over 100 residential mortgage loans            In late March 2013, four defendants were
     lived lavishly, residing in a multi-million-dollar   owner of a Long Island-based mortgage                            valued at more than $58 million.                    sentenced in Miami, Florida, for their roles
     mansion, driving expensive vehicles including        brokerage firm, along with other co-conspir-                                                                         in a mortgage fraud scheme that impacted
     a Bentley, traveling extensively, and paying                                                                              The president and owner pleaded guilty
                                                          ators engaged in a massive mortgage fraud                        for his role in the scheme during the previous      multiple banks in Florida. The ring leader, a
     himself large sums of money. He is alleged to        scheme. The co-conspirators in the scheme                                                                            former bank employee, was sentenced to
     have abruptly left North Carolina for Florida                                                                         semiannual reporting period. During the
                                                          included attorneys, loan officers from the                       current reporting period, a number of the           serve 97 months in prison to be followed by 3
     in 2004, where he continued to market his            firm, a real estate title closer, and straw                                                                          years of supervised release and was ordered
     services under new company names.                                                                                     co-conspirators were sentenced, as follows:
                                                          buyer recruiters. As part of the scheme, the                                                                         to pay restitution of $11,627,564. Three other
        Based upon the developer’s statements             co-conspirators arranged home sales between                      •	A loan officer was sentenced to serve 13          individuals were sentenced for their roles.
     and representations to investors, various            straw buyers who posed as home buyers, but                         months in prison to be followed by 3 years        One was sentenced to serve 13 months in
     individuals collectively invested approximately      who had no intention of living in, or paying                       of supervised release. In addition, he was        prison to be followed by 3 years of supervised
     $10 million with him and his companies.              for, the mortgaged properties, and homeown-                        ordered to pay restitution in the amount of       release and was ordered to pay restitution of
     Additionally, banks and lenders disbursed            ers, often people in financial distress, who                       $753,834.                                         $408,689. Another was sentenced to 3 years
     approximately $20 million in loans, leaving          were willing to sell their homes. One defen-                     •	Another loan officer was sentenced to serve       of probation, including 6 months of electronic
     investors holding millions in debt. The              dant was paid approximately $300,000 by                            one year in prison to be followed by 3 years      monitoring/home confinement, and was
22                                                                                                                                                                                                                                              23
     ordered to pay restitution of $250,902. The       loan approvals to applicants in exchange
     third individual, the former bank employee’s      for kickbacks that were made directly to                                      Keeping Current with Criminal Activities Nationwide
     father, was sentenced to 2 years of supervised    him through one of several shell companies                  The FDIC OIG participates in the following bank fraud, mortgage fraud, and other working groups and task
     release and was ordered to pay restitution of     that were organized by either him or the                    forces throughout the country. We benefit from the perspectives, experience, and expertise of all parties
                                                       co-conspirators. Several companies were                     involved in combating criminal activity and fraudulent schemes nationwide.
     $67,600.
         The former employee of Bank of America,       established for the purpose of diverting                    OIG Headquarters         National Bank Fraud Working Group--National Mortgage Fraud Working Sub-group.
     Great Florida Bank, and First Citizens Bank       and managing the illicitly obtained bank
                                                                                                                   New York Region          Long Island Mortgage Fraud Task Force; Eastern District New York Mortgage
     & Trust Company organized a scheme to             proceeds.                                                                            Fraud Task Force; the Northern Virginia Real Estate Fraud Initiative Working Group,
     enrich himself and his co-conspirators by              Source: This investigation was initiated under the                              Manassas, Virginia; Maine Suspicious Activity Report (SAR) Review Team; Maryland
                                                       Miami Mortgage Fraud Task Force Initiative. Participat-                              Mortgage Fraud Task Force; the New England Mortgage Fraud Working Group; Phila-
     acquiring loans for unqualified borrowers         ing Agencies: This joint investigation was conducted by                              delphia Mortgage Fraud Working Group; DC National SAR Review Team.
     and/or individuals who lacked the appropri-       FDIC OIG and the FBI-Miami Division. The case is being
                                                       prosecuted by the U.S. Attorney’s Office for the Southern   Atlanta Region           Middle District of Florida Mortgage and Bank Fraud Task Force; Southern District of
     ate collateral required for obtaining home        District of Florida.                                                                 Florida Mortgage Fraud Working Group; Northern District of Georgia Mortgage Fraud
     equity lines of credit. He facilitated the                                                                                             Task Force; Eastern District of North Carolina Bank Fraud Task Force; Northern District
     completion of fraudulent loan applications                                                                                             of Alabama Financial Fraud Working Group.
     via the use of altered or completely fictitious
                                                                                                                   Kansas City Region       St. Louis Mortgage Fraud Task Force; Kansas City Mortgage Fraud Task Force; Kansas
     earning statements for borrowers, fraudulent
                                                                                                                                            City Financial Crimes Task Force; Minnesota Inspector General Council meetings;
     verifications of deposit or income, and the                                                                                            Kansas City SAR Review Team; Springfield, Missouri SAR Review Team; Nebraska SAR
     presentation of inaccurate asset information                                                                                           Review Team; Iowa Mortgage Fraud Working Group.
     on the uniform residential loan applications,
                                                                                                                   Chicago Region           Illinois Mortgage Fraud Working Group; Dayton Area Mortgage Task Force; Illinois
     which were submitted to the lending institu-                                                                                           Fraud Working Group; Indiana Bank Fraud Working Group; Central District of Illinois
     tions involved. Many of the applicants did                                                                                             SAR Review Team; Northern District of Illinois SAR Review Team; Detroit SAR Review
     not even own the property for which they                                                                                               Team; Financial Investigative Team, Milwaukee, Wisconsin.
     acquired the home equity lines of credit. He
                                                                                                                   San Francisco Region     FBI Seattle Mortgage Fraud Task Force, Fresno Mortgage Fraud Working Group for
     further enriched himself by guaranteeing                                                                                               the Eastern District of California, Sacramento Mortgage Fraud Working Group for the
                                                                                                                                            Eastern District of California, Sacramento SAR Working Group, Los Angeles Mortgage
                                                                                                                                            Fraud Working Group for the Central District of California.
                    Strong Partnerships
                    Strong Partnerships with
                                        with Law
                                             Law Enforcement
                                                 Enforcement Colleagues
                                                             Colleagues
                                                                                                                   Dallas Region            SAR Review Team for Northern District of Mississippi, SAR Review Team for Southern
      The OIG has partnered with various U.S. Attorneys’ Offices throughout the country in                                                  District of Mississippi, Oklahoma City Financial Crimes SAR Review Work Group,
                                                                                                                                            North Texas Mortgage Fraud Working Group, Eastern District of Texas Mortgage
      bringing to justice individuals who have defrauded the FDIC or financial institutions                                                 Fraud Task Force, Texas Attorney General’s Residential Mortgage Fraud Task Force,
      within the jurisdiction of the FDIC, or criminally impeded the FDIC’s examination and                                                 Houston Mortgage Fraud Task Force, Austin SAR Review Working Group.
      resolution processes. The alliances with the U.S. Attorneys’ Offices have yielded positive
      results during this reporting period. Our strong partnership has evolved from years of                       Electronic Crimes Unit   Washington Metro Electronic Crimes Task Force, Botnet Threat Task Force, High Tech-
      hard work in pursuing offenders through parallel criminal and civil remedies resulting in                                             nology Crime Investigation Association, Cyberfraud Working Group, Council of the
                                                                                                                                            Inspectors General on Integrity and Efficiency IT Subcommittee.
      major successes, with harsh sanctions for the offenders. Our collective efforts have served
      as a deterrent to others contemplating criminal activity and helped maintain the public’s
      confidence in the nation’s financial system.
      During the reporting period, we partnered with U.S. Attorneys’ Offices in the following
      geographic areas: Alabama, Arizona, Arkansas, California, Colorado, District of Columbia,
      Florida, Georgia, Illinois, Iowa, Kansas, Kentucky, Louisiana, Maryland, Massachusetts,
      Michigan, Minnesota, Mississippi, Missouri, Nebraska, Nevada, New Jersey, New Mexico,
      New York, North Carolina, North Dakota, Ohio, Oklahoma, Pennsylvania, South Carolina,
      South Dakota, Tennessee, Texas, Utah, Virginia, Washington, West Virginia, Wisconsin, and
      Puerto Rico.
      We also worked closely with the Department of Justice; FBI; other OIGs; other federal,
      state, and local law enforcement agencies; and FDIC divisions and offices as we
      conducted our work during the reporting period.


24                                                                                                                                                                                                                                    25
     Strategic Goal 2: The
     OIG Will Help the FDIC
     Maintain the Viability of
     the Insurance Fund                                                                                    aggregate premiums paid by institutions with         Institution Program, Dedicated Examiner
                                                                                                           less than $10 billion in assets would decline        Program, Shared National Credit Program, and
                                                                                                           by approximately 30 percent, primarily due to        off-site monitoring systems.
                                                                                                           the assessment base change.                              Importantly, with respect to the largest
                                                                                                                The FDIC, in cooperation with the other         institutions, Title II of the Dodd-Frank Act will
         Federal deposit insurance remains a          the fund was the decline in the number of
                                                                                                           primary federal regulators, proactively              help address the notion of “Too Big to Fail.”
     fundamental part of the FDIC’s commitment        banks on the FDIC’s “Problem List” from 813
                                                                                                           identifies and evaluates the risk and financial      The largest institutions will be subjected to
     to maintain stability and public confidence in   in the fourth quarter of 2011 to 651 in the
                                                                                                           condition of every insured depository                the same type of market discipline facing
     the nation’s financial system. With enactment    fourth quarter of 2012. The fourth quarter
                                                                                                           institution. The FDIC also identifies broader        smaller institutions. Title II provides the FDIC
     of the Emergency Economic Stabilization Act      marked the seventh consecutive quarter that
                                                                                                           economic and financial risk factors that affect      authority to wind down systemically impor-
     of 2008, the limit of the basic FDIC deposit     the number of problem banks had fallen. As
                                                                                                           all insured institutions. The FDIC is commit-        tant bank holding companies and non-bank
     insurance coverage was raised temporarily        noted earlier, total assets of “problem” institu-
                                                                                                           ted to providing accurate and timely bank            financial companies as a companion to the
     from $100,000 to $250,000 per depositor,         tions also declined year-over-year between
                                                                                                           data related to the financial condition of           FDIC’s authority to resolve insured depository
     through December 31, 2009. Such cover-           2011 and 2012 from $319 billion to $233
                                                                                                           the banking industry. Industry-wide trends           institutions.
     age was subsequently extended through            billion. Eight insured institutions failed during
                                                                                                           and risks are communicated to the financial              To help the FDIC maintain the viability of
     December 31, 2013, and the Dodd-Frank Act        the fourth quarter—the smallest number of
                                                                                                           industry, its supervisors, and policymakers          the DIF, the OIG’s 2013 performance goal is
     made permanent the increase in the coverage      failures in a quarter since the second quarter
                                                                                                           through a variety of regularly produced publi-       as follows:
     limit to $250,000. It also provided deposit      of 2008, when there were two.
                                                                                                           cations and ad hoc reports. Risk-management
     insurance coverage on the entire balance of          In light of such progress, the DIF balance       activities include approving the entry of new        •	Evaluate corporate programs to identify and
     non-interest bearing transaction accounts        has continued to increase. During the fourth         institutions into the deposit insurance system,        manage risks in the banking industry that
     at all insured depository institutions until     quarter of 2012, the DIF balance increased by        off-site risk analysis, assessment of risk-based       can cause losses to the fund.
     December 31, 2012. A priority for the FDIC       $7.8 billion, from $25.2 billion to $33.0 billion.   premiums, and special insurance examina-
     is to ensure that the DIF remains viable to      Over the twelve consecutive quarters since           tions and enforcement actions. In light of
     protect all insured depositors. To maintain      the beginning of 2010, the fund balance has          increasing globalization and the interdepen-
                                                                                                                                                                OIG Work in Support of Goal 2
     sufficient DIF balances, the FDIC collects       increased a total of $53.8 billion.                  dence of financial and economic systems,                 We did not complete work specifically
     risk-based insurance premiums from insured                                                            the FDIC also supports the development and           related to this goal area during the reporting
                                                          While the fund is considerably stronger
     institutions and invests deposit insurance                                                            maintenance of effective deposit insurance           period. We would note, however, that the
                                                      than it has been, the FDIC must continue to
     funds.                                                                                                and banking systems world-wide.                      OIG’s work referenced in goal 1 fully supports
                                                      monitor the emerging risks that can threaten
         Since year-end 2007, the failure of                                                                                                                    the goal of helping the FDIC maintain the
                                                      fund solvency in the interest of continuing to           Responsibility for identifying and manag-
     FDIC-insured institutions has imposed total                                                                                                                viability of the DIF. For example, each institu-
                                                      provide the insurance coverage that deposi-          ing risks to the DIF lies with the FDIC’s Division
     estimated losses of nearly $87 billion on                                                                                                                  tion for which we conduct a material loss
                                                      tors have come to rely upon.                         of Insurance and Research, RMS, Division of
     the DIF. The sharp increase in bank failures                                                                                                               review, in-depth review, or a failed bank
                                                          The FDIC has also implemented the                Resolutions and Receiverships, and OCFI. The
     over the past several years caused the fund                                                                                                                review by definition, causes a loss to the DIF.
                                                      Dodd-Frank Act requirement to redefine the           FDIC’s Office of Corporate Risk Management
     balance to become negative. The DIF balance                                                                                                                The OIG’s failed bank work is designed to help
                                                      base used for deposit insurance assessments          also plays a key role in identifying risks. To
     turned negative in the third quarter of 2009                                                                                                               prevent such losses in the future. Similarly,
                                                      as average consolidated total assets minus           help integrate the risk management process,
     and hit a low of negative $20.9 billion in the                                                                                                             investigative activity described in goal 1
                                                      average tangible equity rather than an               the FDIC established the Enterprise Risk
     following quarter.                                                                                                                                         fully supports the strategic goal of helping
                                                      assessment based on domestic deposits. The           Committee, a cross-divisional body. Also, a
                                                                                                                                                                to maintain the viability of the DIF. The OIG’s
          In the aftermath of the financial crisis,   FDIC does not expect this change to materi-          Risk Analysis Center monitors emerging risks
                                                                                                                                                                efforts often lead to successful prosecutions
     FDIC-insured institutions continue to make       ally affect the overall amount of assessment         and, along with Regional Risk Committees,
                                                                                                                                                                of fraud in financial institutions, with restitu-
     gradual but steady progress. Commercial          revenue that otherwise would have been               reports to the Enterprise Risk Committee.
                                                                                                                                                                tion paid back to the FDIC when possible,
     banks and savings institutions insured by the    collected. However, as Congress intended, the            Over recent years, the consolidation of          and/or deterrence of fraud that can cause
     FDIC reported aggregate net income of $37.6      change in the assessment base will generally         the banking industry resulted in fewer and           losses to the fund.
     billion in the third quarter of 2012, a $2.3     shift some of the overall assessment burden          fewer financial institutions controlling an
     billion (6.6 percent) improvement from the       from community banks to the largest institu-         ever-expanding percentage of the nation’s
     $35.2 billion in profits the industry reported   tions, which rely less on domestic deposits          financial assets. The FDIC has taken a number
     in the third quarter of 2011. This was the       for their funding than do smaller institutions.      of measures to strengthen its oversight of
     12th consecutive quarter that earnings had       The result will be a sharing of the assessment       the risks to the insurance fund posed by the
     registered a year-over-year increase. Also       burden that better reflects each group’s share       largest institutions, and its key programs
     noteworthy with respect to the viability of      of industry assets. The FDIC estimated that          have included the Large Insured Depository
26                                                                                                                                                                                                                  27
     Strategic Goal 3: The OIG
     Will Assist the FDIC to Protect
     Consumer Rights and
     Ensure Customer Data                                                                                   Economic inclusion continues to be a priority      are as follows:
     Security and Privacy                                                                                   for the FDIC, and a key focus going forward
                                                                                                            will be on serving the unbanked and under-
                                                                                                                                                               •	Contribute to the effectiveness of the Corpo-
                                                                                                                                                                 ration’s efforts to ensure compliance with
                                                                                                            banked in our country.                               consumer protections at FDIC-supervised
                                                                                                                Consumers today are also concerned               institutions.
         Consumer protection laws are important          and examining the banks where the FDIC is
                                                                                                            about data security and financial privacy.         •	Support corporate efforts to promote
     safety nets for Americans. The U.S. Congress        the primary federal regulator to determine
                                                                                                            Banks are increasingly using third-party             fairness and inclusion in the delivery of
     has long advocated particular protections for       the institutions’ compliance with laws and
                                                                                                            servicers to provide support for core informa-       products and services to consumers and
     consumers in relationships with banks. The          regulations governing consumer protection,
                                                                                                            tion and transaction processing functions. The       communities.
     following are but a sampling of Acts seeking        fair lending, and community investment. As
                                                                                                            FDIC seeks to ensure that financial institutions
     to protect consumers:                               a means of remaining responsive to consum-                                                            •	Conduct investigations of fraudulent repre-
                                                                                                            protect the privacy and security of informa-
     •	The Community Reinvestment Act encour-            ers, the FDIC’s Consumer Response Center                                                                sentations of FDIC affiliation or insurance
                                                                                                            tion about customers under applicable U.S.
       ages federally insured banks to meet the          investigates consumer complaints about                                                                  that negatively impact public confidence in
                                                                                                            laws and regulations.
       credit needs of their entire community.           FDIC-supervised institutions and responds to                                                            the banking system.
                                                         consumer inquiries about consumer laws and             Every year fraud schemers attempt to
     •	The Equal Credit Opportunity Act prohibits        regulations and banking practices.                 rob consumers and financial institutions of
       creditor practices that discriminate based                                                           millions of dollars. The OIG’s Office of Inves-    OIG Work in Support of Goal 3
       on race, color, religion, national origin, sex,       Currently and going forward, the FDIC
                                                                                                            tigations can identify, target, disrupt, and
       marital status, or age.                           is experiencing and implementing changes                                                                  During the reporting period, we did not
                                                                                                            dismantle criminal organizations and individ-
                                                         related to the Dodd-Frank Act that have direct                                                        devote audit or evaluation resources directly
     •	The Home Mortgage Disclosure Act was                                                                 ual operations engaged in fraud schemes
                                                         bearing on consumer protections. The Dodd-                                                            to this goal area. We would note, however,
       enacted to provide information to the                                                                that target our financial institutions or that
                                                         Frank Act established the Consumer Financial                                                          that we initiated two new assignments
       public and federal regulators regarding how                                                          prey on the banking public. OIG investiga-
                                                         Protection Bureau within the FRB and trans-                                                           related to consumer protection. First, we
       depository institutions are fulfilling their                                                         tions have identified multiple schemes that
                                                         ferred to this bureau the FDIC’s examination                                                          are examining the FDIC’s actions to address
       obligations towards community housing                                                                defraud consumers. Common schemes range
                                                         and enforcement responsibilities over most                                                            consumer protection violations and deficien-
       needs.                                                                                               from identity fraud to Internet scams such as
                                                         federal consumer financial laws for insured                                                           cies. Additionally, we are coordinating with
                                                                                                            “phishing” and “pharming.”
     •	The Fair Housing Act prohibits discrimina-        depository institutions with over $10 billion in                                                      OIG counterparts in planning an assignment
       tion based on race, color, religion, national     assets and their insured depository institution        The misuse of the FDIC’s name or logo          to examine the progress that the prudential
       origin, sex, familial status, and handicap in     affiliates. Also during early 2011, the FDIC       has been identified as a common scheme to          regulators and the Consumer Financial
       residential real-estate-related transactions.     established a new Division of Depositor and        defraud consumers. Such misrepresentations         Protection Bureau have made in establish-
                                                         Consumer Protection, responsible for the           have led unsuspecting individuals to invest        ing coordination for the many consumer
     •	The Gramm-Leach Bliley Act eliminated
                                                         Corporation’s compliance examination and           on the strength of FDIC insurance while            protection responsibilities that the various
       barriers preventing the affiliations of banks
                                                         enforcement program as well as the depositor       misleading them as to the true nature of the       parties carry out. Our investigative work
       with securities firms and insurance compa-                                                           investment products being offered. These
       nies and mandates new privacy rules.              protection and consumer and community                                                                 involving misrepresentation of FDIC insur-
                                                         affairs activities that support that program.      consumers have lost millions of dollars in         ance or affiliation and protection of personal
     •	The Truth in Lending Act requires meaning-                                                           the schemes. Investigative work related to         information supported this strategic goal
       ful disclosure of credit and leasing terms.           Historically, turmoil in the credit and        such fraudulent schemes is ongoing and
                                                         mortgage markets has presented regulators,                                                            area. Further, in response to an increase in the
     •	The Fair and Accurate Credit Transaction                                                             will continue. With the help of sophisticated      number of consumer inquiries in our public
                                                         policymakers, and the financial services indus-    technology, the OIG continues to work with
       Act further strengthened the country’s            try with serious challenges. The FDIC has been                                                        inquiry system, the OIG has referred a number
       national credit reporting system and assists                                                         FDIC divisions and other federal agencies to       of matters either to the FDIC’s Consumer
                                                         committed to working with the Congress             help with the detection of new fraud patterns
       financial institutions and consumers in the       and others to ensure that the banking system                                                          Response Center or to other entities offering
       fight against identity theft.                                                                        and combat existing fraud. Coordinating            consumer assistance on banking-related
                                                         remains sound and that the broader financial       closely with the Corporation and the various
         The FDIC serves a number of key roles in        system is positioned to meet the credit needs                                                         topics. These efforts are discussed below.
                                                                                                            U.S. Attorneys’ Offices, the OIG helps to
     the financial system and among the most             of the economy, especially the needs of            sustain public confidence in federal deposit       Office of Investigations Works to Prevent
     important is its work in ensuring that banks        creditworthy households that may experience        insurance and goodwill within financial            Misrepresentations of FDIC Affiliation
     serve their communities and treat consumers         distress. Another important priority is finan-     institutions.
     fairly. The FDIC carries out its role by provid-    cial literacy. The FDIC has promoted expanded                                                             Unscrupulous individuals sometimes
     ing consumers with access to information            opportunities for the underserved banking              To assist the FDIC to protect consumer         attempt to misuse the FDIC’s name, logo,
     about their rights and disclosures that are         population in the United States to enter and       rights and ensure customer data security and       abbreviation, or other indicators to suggest
     required by federal laws and regulations            better understand the financial mainstream.        privacy, the OIG’s 2013 performance goals          that deposits or other products are fully
28                                                                                                                                                                                                                29
                                                                                                                                                                        Strategic Goal 4: The
                                                                                                                                                                        OIG Will Help Ensure that
                                                                                                                                                                        the FDIC Efficiently and
                                                                                                                                                                        Effectively Resolves Failing
     insured or somehow connected to the FDIC.                Source: Maricopa County Sheriff’s Office, Surprise,
                                                         Arizona. Responsible Agencies: This was a joint investiga-
                                                                                                                                                                        Banks and Manages
     Such misrepresentations induce the targets of
     schemes to trust in the strength of FDIC insur-
                                                         tion with the Maricopa County Sheriff’s Office. The case is
                                                         being prosecuted by the U.S. Attorney’s Office for the District                                                Receiverships
     ance or the FDIC name while misleading them         of Arizona.
     as to the true nature of the investments or
     other offerings. Abuses of this nature not only     Electronic Crimes Unit Responds to                                    In the FDIC’s history, no depositor has       challenges and risks to the FDIC.
     harm consumers, they can also erode public          Email and Other Schemes                                           experienced a loss on the insured amount              Perhaps the most fundamental reform
     confidence in federal deposit insurance. As             The Electronic Crimes Unit (ECU) continues                    of his or her deposit in an FDIC-insured          under the Dodd-Frank Act is the new resolu-
     discussed below, during the reporting period,       to work with agency personnel and an FDIC                         institution due to a failure. One of the FDIC’s   tion authority for large bank holding compa-
     an individual received a harsh sentence for his     contractor to identify and mitigate the effects                   most important roles is acting as the receiver    nies and systemically important non-bank
     role in a Ponzi scheme involving misrepresen-       of phishing attacks through emails claiming                       or liquidating agent for failed FDIC-insured      financial companies. The FDIC has historically
     tation of FDIC affiliation that victimized senior   to be from the FDIC. These schemes persist                        institutions. The success of the FDIC’s efforts   carried out a prompt and orderly resolution
     citizens.                                           and seek to elicit personally identifiable and/                   in resolving troubled institutions has a direct   process under its receivership authority for
                                                         or financial information from their victims.                      impact on the banking industry and on
     Phoenix Man Sentenced for Role in                                                                                                                                       insured banks and thrifts. The Dodd-Frank
                                                         The nature and origin of such schemes vary                        taxpayers.
     Ponzi Scheme                                                                                                                                                            Act gave the FDIC a similar set of receiver-
                                                         and in many cases, it is difficult to pursue the
                                                                                                                               The FDIC’s Division of Resolutions and        ship powers to liquidate failed systemically
         On November 27, 2012, an individual             perpetrators, as they are quick to cover their
                                                                                                                           Receiverships’ (DRR) responsibilities include     important financial firms. As noted earlier,
     falsely representing himself as being affiliated    cyber tracks, often continuing to originate
                                                                                                                           planning and efficiently handling the resolu-     OCFI is the FDIC office responsible for such
     with the FDIC was sentenced for his role            their schemes from other Internet addresses.
                                                                                                                           tions of failing FDIC-insured institutions and    activity.
     in operating a $6.3 million Ponzi scheme                                                                              providing prompt, responsive, and efficient
     through which he posed as an “FDIC Broker”          OIG’s Inquiry Intake System Responds to                                                                                 In addition to the future challenges
                                                         Public Concerns and Questions                                     administration of failing and failed financial    associated with exercising this new resolu-
     and marketed and sold fictitious FDIC-insured
                                                                                                                           institutions in order to maintain confidence      tion authority, the Corporation is currently
     certificates of deposit (CDs) to senior citizen         The OIG’s inquiry intake system supple-
                                                                                                                           and stability in our financial system.            dealing with a daunting resolution and
     investors, many of whom lived in Arizona. He        ments the OIG Hotline function. The Hotline
     was ordered to serve 144 months in prison to        continues to address allegations of fraud,                        •	The resolution process involves valuing         receivership workload. According to the
     be followed by 5 years of supervised release.       waste, abuse, and possible criminal miscon-                         a failing federally insured depository          FDIC, as of year-end 2012, during the crisis
     He was also ordered to pay restitution totaling     duct. However, over the past several years,                         institution, marketing it, soliciting and       465 institutions failed, with total assets of
     $5,913,998 to his victims. As reported in           our office has continued to receive a large                         accepting bids for the sale of the institu-     $680 billion. Estimated losses resulting from
     an earlier semiannual report, he previously         number of public inquiries ranging from                             tion, considering the least costly resolution   the failures total approximately $87 billion.
     pleaded guilty to mail fraud and false person-      media inquiries to requests for additional                          method, determining which bid to accept         With 651 institutions on the FDIC’s “Problem
     ation of an FDIC officer or employee.               information on failed institutions to pleas                         and working with the acquiring institution      List,” more failures could occur and the FDIC’s
          From July 2000 through June 2011, he           for assistance with mortgage foreclosures to                        through the closing process.                    corresponding asset disposition workload
     marketed and sold fictitious brokered CDs to        questions regarding credit card companies                         •	The receivership process involves perform-      would likewise increase.
     senior citizen investors while representing         and banking practices. These inquiries                              ing the closing function at the failed bank;        Franchise marketing activities are at the
     himself as an “FDIC Broker.” He solicited inves-    come by way of phone calls, emails, faxes,                          liquidating any remaining assets; and           heart of the FDIC’s resolution and receiver-
     tors through senior newspaper advertise-            and other correspondence. The OIG makes                             distributing any proceeds to the FDIC, the      ship work. The FDIC pursues the least costly
     ments and fliers, and he acted primarily under      every effort to acknowledge each inquiry                            bank customers, general creditors, and those    resolution to the DIF for each failing institu-
     the assumed names of BankNet, Nationwide            and be responsive to the concerns raised.                           with approved claims.                           tion. Each failing institution is subject to the
     Banknet Services, Capital One Custodial             We coordinate closely with others in the
                                                                                                                               The FDIC’s resolution and receivership        FDIC’s franchise marketing process, which
     Services, and WWI. No investor funds were           Corporation through the FDIC’s Public Service
                                                                                                                           activities pose tremendous challenges. As         includes valuation, marketing, bidding and
     used to purchase CDs, but funds were actually       Provider working group and appreciate their
                                                                                                                           indicated by earlier trends in mergers and        bid evaluation, and sale components. The
     used for personal expenses and for purported        assistance. We handle those matters within
                                                                                                                           acquisitions, banks over the past years have      FDIC is often able to market institutions such
     “interest” and “principal” payments on              the OIG’s jurisdiction and refer inquiries, as
                                                                                                                           become more complex, and the industry             that all deposits, not just insured deposits, are
     fraudulent CDs sold to other victim investors.      appropriate, to other FDIC offices and units
                                                                                                                           has consolidated into larger organizations.       purchased by the acquiring institution, thus
     Many of the elderly or retired Arizonans who        or to external organizations. During the past
                                                                                                                           As a result, the FDIC has been called upon to     avoiding losses to uninsured depositors.
     fell prey to the scheme invested substantial        6-month period, we addressed approximately
                                                         150 such matters.                                                 handle failing institutions with significantly        Of special note, through purchase and
     retirement savings.
                                                                                                                           larger numbers of insured deposits than it has    assumption agreements with acquiring insti-
                                                                                                                           dealt with in the past. The sheer volume of all   tutions, the Corporation has entered into 290
                                                                                                                           failed institutions, big and small, has posed     SLAs involving about $212.7 billion in assets.
30                                                                                                                                                                                                                               31
     Under these agreements, the FDIC agrees            has fallen from a peak of $1.34 billion in 2010     receivership activities. For example, and as         nationwide ORE contractors to assist in the
     to absorb a portion of the loss—generally          to $456.7 million proposed for 2013, a reduc-       captured in our discussion of this work under        acquisition, management, marketing, and
     80-95 percent—which may be experienced             tion of $318.6 million from 2012 and $884.9         goal 1, earlier, H.R. 2056 included areas of         final disposition of all types of ORE assets.
     by the acquiring institution with regard to        million (66 percent) over 3 years. Still—the        interest related to SLAs, significance of losses     DRR also assigns one of its Resolution and
     those assets, for a period of up to 10 years.      significant surge in failed-bank assets and         at failed institutions, and capital adequacy         Receivership Specialists (Account Officers)
     In addition, the FDIC has entered into 34          associated contracting activities will continue     and investment in both open and closed               to monitor contractor management, market-
     structured asset sales to dispose of about         to require effective and efficient contrac-         institutions. We also completed a separate           ing, and disposition efforts. The contractor
     $26 billion in assets. Under these arrange-        tor oversight management and technical              assignment involving the Corporation’s               maintains all original asset files and updates
     ments, the FDIC retains a participation inter-     monitoring functions.                               controls for managing, marketing, and dispos-        management and marketing information on
     est in future net positive cash flows derived          While OIG audits and evaluations address        ing of owned real estate, as described below.        each property. This information is available to
     from third-party management of these assets.       various aspects of resolution and receiver-         Efforts of our ECU as they relate to bank            DRR Account Officers through the contractor’s
         Other post-closing asset management            ship activities, OIG investigations benefit         closings are described as well.                      Web site.
     activities continue to require much FDIC           the Corporation in other ways. For example,         DRR’s Controls for Managing, Marketing,                  We reported that DRR has established
     attention. FDIC receiverships manage assets        in the case of bank closings where fraud is         and Disposing of Owned Real Estate Assets            a number of important control activities
     from failed institutions, mostly those that        suspected, our Office of Investigations may                                                              for managing, marketing, and disposing of
     are not purchased by acquiring institutions        send case agents and computer forensic                   As noted above, the FDIC’s DRR is respon-       ORE assets, and DRR has provided Account
     through purchase and assumption agree-             special agents from the ECU to the institution.     sible for liquidating assets in receivership. As     Officers adequate guidance to facilitate DRR’s
     ments or involved in structured sales. The         ECU agents use special investigative tools to       of December 1, 2011, the FDIC owned 1,398            monitoring of contractors. Specifically, we
     FDIC is managing 466 receiverships holding         provide computer forensic support to OIG            Owned Real Estate (ORE) assets with a book
                                                                                                                                                                 reviewed contractor Web sites and discussed
     about $17 billion in assets, mostly securities,    investigations by obtaining, preserving, and        value of approximately $1.2 billion (5 percent
                                                                                                                                                                 the status of the 25 active ORE assets in our
     delinquent commercial real-estate and single-      later examining evidence from computers at          of total receivership assets). From January 1,
                                                                                                                                                                 sample with DRR officials and determined,
     family loans, and participation loans. Post-       the bank.                                           2011 to November 30, 2011, the FDIC sold
                                                                                                                                                                 among other positive features, that:
     closing asset managers are responsible for                                                             2,259 ORE assets, with a book value over $1.5
                                                            The OIG also coordinates with DRR on            billion and a sales price of approximately           •	Environmental Assessments had been
     managing many of these assets and rely on          concealment of assets cases that may arise. In      $620 million. During the reporting period, we          conducted and documented.
     receivership assistance contractors to perform     many instances, the FDIC debtors do not have
     day-to-day asset management functions.                                                                 issued the results of an audit to assess control     •	Current appraisals had been conducted and
                                                        the means to pay fines or restitution owed to       activities associated with DRR’s processes for
     Since these loans are often sub-performing or                                                                                                                 the results documented.
                                                        the Corporation. However, some individuals          managing, marketing, and disposing of ORE
     nonperforming, workout and asset disposi-          do have the means to pay but hide their                                                                  •	Property tax information was obtained
     tion efforts are more intensive.                                                                       assets.
                                                        assets and/or lie about their ability to pay. The                                                          and documented on the contractor’s Web
         The FDIC increased its permanent resolu-       Office of Investigations works with both DRR            When a bank fails, the FDIC establishes            site. Tax payments had been made or were
     tion and receivership staffing and significantly   and the Legal Division in pursuing criminal         a receivership to liquidate the assets of the          being reviewed in accordance with the Asset
     increased its reliance on contractor and term      investigations of these individuals.                failed financial institution. In most cases, these     Resolution Manual.
     employees to fulfill the critical resolution                                                           assets include ORE, such as single-family
                                                            To help ensure the FDIC efficiently and                                                              •	Property and liability insurance coverage
     and receivership responsibilities associated                                                           homes, condominiums, office buildings,
                                                        effectively resolves failing banks and manages                                                             was properly obtained.
     with the ongoing FDIC interest in the assets                                                           hotels, and undeveloped land, among other
                                                        receiverships, the OIG’s 2013 performance           types of property. The FDIC acquires ORE             •	Congressional inquiries and consumer
     of failed financial institutions. Now, as the      goals are as follows:
     number of financial institution failures contin-                                                       initially because it is on the books of the failed     complaints were being tracked and
     ues to decline, the Corporation is reshaping       •	Evaluate the FDIC’s plans and systems for         bank and therefore becomes an asset of the             addressed.
     its workforce and adjusting its budget and           managing bank resolutions.                        receivership. Once the receivership is estab-            With respect to our sample of 30 inactive
     resources accordingly. The FDIC closed the         •	Investigate crimes involved in or contribut-      lished, the FDIC acquires ORE through the            assets (sold, written-off, or otherwise
     temporary West Coast Office and the Midwest          ing to the failure of financial institutions or   foreclosure process on non-performing loans.         disposed of ), we reviewed sales documenta-
     Office in January 2012 and September 2012,           which lessen or otherwise affect recoveries       ORE may also be discovered during the term           tion and accounting entries and determined
     respectively, and plans to close the East Coast      by the DIF, involving restitution or otherwise.   of the receivership because, for example, the        the following:
     Office in 2014. In this connection, authorized                                                         ORE asset was not appropriately included on
                                                                                                            the books of the failed bank or as the result of     •	Sales Cases were based on current appraisals.
     staffing for DRR, in particular, has fallen from
     a peak of 2,460 in 2010 to 1,463 proposed          OIG Work in Support of Goal 4                       a settlement during litigation related to the        •	Approved Sales Cases were documented
     for 2013, which reflects a reduction of 393                                                            bank’s failure.                                        in the FDIC Automated Corporate Tracking
                                                           During the reporting period, in response
     positions from 2012 and 997 positions over                                                               To facilitate the process of liquidating             System.
                                                        to H.R. 2056, we completed varied assign-
     3 years. As for DRR contractor funding, it too     ments involving certain resolution and              ORE assets, DRR uses the services of two             •	Sales data and settlement information were
32                                                                                                                                                                                                                 33
                                                                                                                                       Strategic Goal 5: The OIG Will
                                                                                                                                       Promote Sound Governance and
                                                                                                                                       Effective Stewardship and Security
                                                                                                                                       of Human, Financial, IT, and
      properly recorded in DRR’s Communication,
      Capability, Challenge, and Control (4C)
                                                       of electronic evidence.
                                                                                                                                       Physical Resources
                                                          During the reporting period, the ECU
      System.                                          participated in a search warrant of a bank
     •	Sales proceeds were properly recorded in the    president’s office prior to the closing of the
       appropriate receivership accounting records.    bank. The ECU collected electronic evidence
                                                                                                            The FDIC must effectively and economi-           FDIC has reduced authorized nonpermanent
     •	Postings to the 4C System and to the            from the president’s office during the warrant
                                                       and from the bank during the closing. The        cally manage and utilize a number of critical        examination staff as well. Risk management
       receivership accounting records were made                                                        strategic resources in order to carry out its        staffing has declined from a peak of 2,237 in
                                                       case involves allegations related to the Bank
       in a timely manner, generally within 15 days                                                     mission successfully, particularly its human,        2011 to 1,966 proposed for 2013, a reduction
                                                       Secrecy Act and money laundering.
       of settlement.                                                                                   financial, information technology (IT), and          of 271 nonpermanent positions. The number
                                                           In another case, the ECU received 18         physical resources. These resources have been        of compliance examination staff as well has
         Our report suggests, however, that DRR
                                                       computers previously seized by the U.S.          stretched during the past years of the recent        begun to decline, though not as much—from
     could strengthen ORE control activities, and
                                                       Secret Service in a joint case with the FDIC     crisis, and the Corporation will continue to         a peak of 572 in 2012 to 522 proposed for
     we made three recommendations related to
                                                       OIG. Because the Secret Service would not        face challenges as it returns to a steadier state    2013, a reduction of 50 nonpermanent
     monitoring budgets and costs, maintaining
                                                       be able to image and analyze the computers       of operations. New responsibilities, reorga-         positions.
     property inspection reports, and transferring
                                                       in a timely manner, the ECU volunteered          nizations, and changes in senior leadership
     responsibility for assets. Enhanced procedures                                                                                                              To fund operations, the Board of Directors
                                                       to conduct the forensic analyses of the          and in the make-up of the FDIC Board have
     in these areas could promote efficiencies                                                                                                               approved a $2.68 billion Corporate Operating
                                                       computers.                                       affected the FDIC workforce substantially over
     and consistency in DRR’s management,                                                                                                                    Budget for 2013, 18.2 percent lower than the
     marketing, and disposition of ORE assets. Our                                                      the past few years. Efforts to promote sound         2012 budget. In conjunction with its approval
     report also includes an observation regarding                                                      governance and effective stewardship of its          of the 2013 budget, the Board also approved
     weaknesses in ORE Budget Case documenta-                                                           core business processes and the IT systems           an authorized 2013 staffing level of 8,026
     tion that DRR was working to address.                                                              supporting those processes, along with atten-        employees, down from 8,713 previously
                                                                                                        tion to human and physical resources, will be        authorized, a net reduction of 687 positions,
         Management concurred with all three
                                                                                                        key to the Corporation’s success in the months       with further reductions projected in 2014 and
     of the report’s recommendations and
                                                                                                        ahead.                                               future years. The FDIC’s operating expenses
     described completed and planned correc-
     tive actions, which are responsive to the                                                               As the number of financial institution          are paid from the DIF, and consistent with
     recommendations.                                                                                   failures continues to decline, the Corporation       sound corporate governance principles, the
                                                                                                        is reshaping its workforce and adjusting its         Corporation’s financial management efforts
     Electronic Crimes Unit Supports Closed                                                             budget and resources accordingly. The FDIC           must continuously seek to be efficient and
     Bank Investigations                                                                                closed the West Coast Office and the Midwest         cost-conscious, particularly in a govern-
         The ECU continued to support the                                                               Office in January 2012 and September 2012,           mentwide environment that is facing severe
     OIG’s Office of Investigations by providing                                                        respectively, and plans to close the East Coast      budgetary constraints.
     computer forensic assistance in ongoing                                                            Office in April 2014. In this connection, as             As conditions improve throughout the
     fraud investigations. To ensure it remains well                                                    noted earlier, authorized staffing for DRR,          industry and the economy, the Corporation
     positioned to do so, the ECU upgraded its                                                          in particular, has fallen from a peak of 2,460       and staff are adjusting to a new work environ-
     computer forensic lab. The ECU has incor-                                                          in 2010 to 1,463 proposed for 2013, which            ment and workplace. The closing of the two
     porated a network and centralized storage                                                          reflects a reduction of 393 positions from 2012      temporary offices and the plans for closing
     for its electronic evidence. The network                                                           and 997 positions over 3 years. DRR contractor       the third can disrupt current workplace
     approach allows the ECU to more effectively                                                        funding also has fallen from a peak of $1.34         conditions. These closings can also introduce
     use its forensic programs. The processing of                                                       billion in 2010 to $456.7 million proposed           risks, as workload, responsibilities, and files
     electronic evidence can become extremely                                                           for 2013, a reduction of $318.6 million from         are transferred and employees depart to take
     resource-intensive when processing large                                                           2012 and $884.9 million (66 percent) over 3          other positions—sometimes external to the
     number of files such as those containing                                                           years. Still, the significant surge in failed-bank   FDIC. Fewer risk management and compli-
     emails. The new network uses the available                                                         assets and associated contracting activities         ance examiners can also pose challenges
     resources more efficiently. Further, the                                                           will continue to require effective and efficient     to the successful accomplishment of the
     volume of electronic evidence collected by                                                         contractor oversight management and techni-          FDIC’s examination responsibilities. Further,
     the ECU has grown exponentially over the last                                                      cal monitoring functions.                            the continued staffing of OCFI, with hiring
     couple of years. Over the last 4 years, the ECU                                                       With the number of troubled FDIC-                 from both internal and external sources will
     has collected and processed over 67 terabytes                                                      supervised institutions also on the decline, the     continue to require attention—with respect to
34                                                                                                                                                                                                             35
     on-boarding, training, and retaining staff with      to be attuned to emerging risks, both internal           and provide ongoing customer service. To           such services as the capture and migration
     requisite skills for the challenging functions       and external to the FDIC, and the Corporation            accommodate the enormous data conver-              of data from failed institutions to Lockheed’s
     of that office. For all employees, in light of       as a whole needs to be ready to take necessary           sion and storage demands associated with           data center and the imaging and indexing
     a transitioning workplace, the Corporation           steps to mitigate those risks as changes occur           the large number of institution failures in        of hardcopy documents. When appropriate,
     will seek to sustain its emphasis on fostering       and challenging scenarios present themselves.            recent years, the FDIC entered into a contract     Lockheed uses credit invoices to reimburse the
     employee engagement and morale. Its new                  To promote sound governance and                      with Lockheed Martin Services, Inc. for data       FDIC for overcharges that are identified during
     Workplace Excellence Program is a step in that       effective stewardship and security of human,             management services. The contract requires         the firm’s internal reviews and reconciliations
     direction.                                           financial, IT, and physical resources, the OIG’s         Lockheed to provide the FDIC with a standard       of labor, travel, materials, and other charges.
         From an IT perspective, amidst the height-       2013 performance goals are as follows:                   method of maintaining failed institution data,
                                                                                                                                                                          The contract, which became effective on
     ened activity in the industry and economy,                                                                    including secure data migration, conversion,
                                                          •	Evaluate corporate efforts to manage human                                                                November 1, 2008, has an initial 3-year base
     the FDIC has engaged in in massive amounts                                                                    cataloging, indexing, storage, security, and
                                                            resources and operations efficiently, effec-                                                              period of performance and two 2-year option
     of information-sharing, both internally and                                                                   retrieval.
                                                            tively, and economically.                                                                                 periods, for a total potential period of perfor-
     with external partners. This is also true with                                                                    We engaged Reed & Associates, CPAs, Inc.       mance of 7 years. As of May 31, 2011, the FDIC
     respect to sharing of highly sensitive informa-      •	Promote integrity in FDIC internal operations.         to audit Lockheed’s invoices to determine          had awarded 78 task orders with a total value
     tion with other members of the Financial             •	Promote alignment of IT with the FDIC’s                whether charges that the FDIC paid to              of $327,872,811 under the contract. As of the
     Services Oversight Council formed pursuant             business goals and objectives.                         Lockheed were adequately supported, allow-         same date, the FDIC had paid 8,902 invoices
     to the Dodd-Frank Act. FDIC systems contain          •	Promote IT security measures that ensure the           able under the terms and conditions of the         totaling $158,352,966. The contract has no
     voluminous amounts of critical data. The               confidentiality, integrity, and availability of        contract, and reasonable. The audit covered        ceiling price.
     Corporation needs to protect against cyber-            corporate information.                                 payments made during the period Novem-
                                                                                                                   ber 1, 2008 through May 31, 2011. The audit             Overall, charges paid to Lockheed that
     threats and ensure the integrity, availability,
     and appropriate confidentiality of bank data,        •	Promote personnel and physical security.               also included an assessment of compliance          Reed reviewed were adequately supported,
     personally identifiable information, and other                                                                with a provision in the contract requiring         allowable under the terms and conditions
                                                          •	Promote sound corporate governance and
     sensitive information in an environment of             effective risk management and internal                 Lockheed, its employees, and its subcontrac-       of the contract, and reasonable. Specifically,
     increasingly sophisticated security threats and        control efforts.                                       tor employees to execute confidentiality           all $8,310,150 of the firm fixed price costs
     global connectivity. In a related vein, contin-                                                               agreements with the FDIC to mitigate the           reviewed were adequately supported, consis-
     ued attention to ensuring the physical security                                                               risk of unauthorized disclosure of sensitive       tent with the rates approved in the contract,
     of all FDIC resources is also a priority. The FDIC   OIG Work in Support of Goal 5                            information.                                       and reasonable. Accordingly, Reed did not
     needs to be sure that its emergency response                                                                                                                     question any firm fixed price costs. In addition,
                                                              During the reporting period, we completed                The FDIC procures services under the
     plans provide for the safety and physical                                                                                                                        Reed did not question any of the $121,476 in
                                                          four assignments in support of this goal area.           contract through task orders that may be
     security of its personnel and ensure that its                                                                                                                    credits that it reviewed. However, the firm did
                                                          We conducted a review of invoices submitted              awarded on either a firm fixed price or time
     business continuity planning and disaster                                                                                                                        identify a total of $740,784 in questioned costs
                                                          by Lockheed Martin for data management                   and materials basis. Under firm fixed price task
     recovery capability keep critical business                                                                                                                       pertaining to other categories of reviewed
                                                          services. We completed our 2012 work in                  orders, the FDIC pays Lockheed an agreed-
     functions operational during any emergency.                                                                                                                      charges. In summary, Reed questioned:
                                                          connection with the Federal Information                  upon amount or service rate for satisfactory
         Finally, a key component of corporate            Security Management Act. We joined the                   performance that covers the contractor’s costs     •	$140,079 (or about 2 percent) of the
     governance at the FDIC is the FDIC Board             Treasury and FRB OIGs in our fifth joint review          and expenses (direct and indirect) as well as        $7,020,304 in time and materials costs
     of Directors. With confirmations of the FDIC         related to the transfer of OTS personnel and             any profit, fees, or markups. The FDIC awards        reviewed,
     Chairman and Vice Chairman, along with               functions to the OCC, FRB, and FDIC, pursuant            firm fixed price task orders to procure such       •	$123,014 in costs resulting from the misclas-
     appointments of others to fill Board positions       to the Dodd-Frank Act. Finally, we reported              things as data storage and data center mainte-       sification of a subcontractor employee’s labor
     over the past year, the Board is now operat-         on the FDIC’s data submissions through the               nance and system monitoring and reporting.           category, and
     ing at full strength. The Board will likely          governmentwide financial report system.                  Under time and materials task orders, the FDIC
                                                          These reviews are summarized below.                                                                         •	$477,691 in unallowable indirect costs that
     face challenges in leading the organization,                                                                  compensates Lockheed for actual produc-
                                                                                                                                                                        Lockheed applied to travel expenses.
     accomplishing the Chairman’s priorities,                                                                      tive work at the hourly rates specified in the
     and coordinating with the other regulatory           Review of Invoices Submitted by Lockheed                 contract; reimburses Lockheed for necessary            Reed also found that confidentiality agree-
     agencies on issues of mutual concern and             Martin                                                   travel and per diem expenses that do not           ments were not consistently executed and
     shared responsibility. Enterprise risk manage-           In fulfilling its responsibilities as receiver for   exceed the limitations in the FDIC Contrac-        maintained for contractor and subcontractor
     ment is a related aspect of governance at the        failed FDIC-insured financial institutions, the          tor Travel Reimbursement Guidelines; and           employees assigned to the contract. Finally,
     FDIC. Notwithstanding a stronger economy             FDIC retains electronically stored institution           pays reasonable amounts for materials that         the report included an observation pertaining
     and financial services industry, the FDIC’s          information and documentation to meet its                Lockheed has been invoiced. The FDIC awards        to the FDIC’s oversight management of the
     enterprise risk management activities need           fiduciary requirements, resolve legal issues,            time and materials task orders to procure          contract.
36                                                                                                                                                                                                                        37
         The report contains six recommendations.       proper controls over this information is           development efforts are incorporated into            information for the fiscal year (FY) ended
     Three of the recommendations are aimed at          critical to mitigating the risk of a negative      the FDIC’s risk management framework and IT          September 30, 2012, to the Department of the
     recovering unallowable and unsupported             financial impact upon insured institutions or      governance processes.                                Treasury for inclusion in the annual Financial
     questioned costs that were charged by              an unauthorized disclosure that could lead to         We made 14 recommendations to improve             Report of the United States Government.
     Lockheed and paid under the contract.              identity theft, consumer fraud, and potential      the effectiveness of the FDIC’s information          The Treasury Financial Manual describes the
     The remaining three recommendations are            legal liability or public embarrassment for the    security program controls. FDIC management           roles of agency Chief Financial Officers and
     intended to enhance the FDIC’s contract            Corporation.                                       concurred with all of the recommendations.           IGs in processing such information through
     administration and oversight manage-                   We evaluated the effectiveness of the                                                               the Treasury’s automated financial reporting
     ment controls and practices. Management            FDIC’s information security program and            Joint Review Conducted by the OIGs of                tool—the Governmentwide Financial Report
     concurred with all six of the report’s recom-      practices by designing audit procedures            the Department of the Treasury, Board of             System (GFRS).
     mendations and described completed and             to assess consistency between the FDIC’s           Governors of the Federal Reserve System,
                                                                                                                                                                    We conducted an audit to verify whether
     planned corrective actions to address each         security controls and FISMA requirements,          and the FDIC
                                                                                                                                                                the FDIC’s summary general ledger informa-
     recommendation.                                    OMB policy and guidelines, and applicable              We issued a report presenting the results        tion agreed with summary information
                                                        National Institute of Standards and Technol-       of the fifth joint review by the Department          entered into the GFRS for the FY ended
     FISMA
                                                        ogy standards and guidelines in the areas          of the Treasury (Treasury), the FRB, and FDIC        September 30, 2012. This audit did not consti-
         The Federal Information Security Manage-       covered by Department of Homeland Security         OIGs of the transfer, pursuant to Title III of the   tute a financial audit. (GAO is responsible for
     ment Act of 2002 (FISMA) requires federal          (DHS) questions. DHS is the agency exercising      Dodd-Frank Act, of the functions, employees,         auditing the financial statements of the FDIC.)
     agencies, including the FDIC, to perform           primary responsibility within the Executive        funds, and property of the former OTS to the         As such, we did not render an opinion on the
     annual independent evaluations of their            Branch for the operational aspects of federal      FRB, the FDIC, and the OCC. In accordance            FDIC’s internal controls over financial report-
     information security programs and practices        agency cybersecurity with respect to the           with Title III of the Dodd-Frank Act, the trans-     ing or over its financial management systems.
     and to report the evaluation results to the        federal information systems that fall within the   fer occurred in July 2011. The Dodd-Frank
     Office of Management and Budget (OMB).             scope of FISMA. We were required to submit         Act further requires that we, jointly with the           We verified that the FDIC’s summary
     FISMA states that the independent evaluations      our responses to the DHS questions through         Department of the Treasury and the FRB OIGs,         general ledger information agreed with
     are to be performed by the agency Inspector        OMB’s FISMA reporting platform—Cyber-              provide a written report on the status of the        summary information entered into the GFRS
     General (IG), or an independent external           Scope—by November 15, 2012.                        implementation of the Plan every 6 months            for the FY ended September 30, 2012. As
     auditor as determined by the IG. The objective                                                        until the Plan is implemented.                       part of our work, we verified that the FDIC’s
                                                            Our report pointed out that management
     of this performance audit was to evaluate the                                                                                                              data submissions in the GFRS for the year
                                                        attention was warranted in several security            This most recent reporting cycle focused
     effectiveness of the FDIC’s information security                                                                                                           ended December 31, 2011 agreed with the
                                                        control areas, particularly Plan of Action and     primarily on additional certifications for
     program and practices, including the FDIC’s                                                                                                                Corporation’s audited financial statements. In
                                                        Milestones, Contractor Systems, and Risk           certain transferred OTS examiners and
     compliance with FISMA and related informa-                                                                                                                 that regard, the GAO expressed an unquali-
                                                        Management. Specifically, planned actions to       collection of supervisory assessments by the
     tion security policies, procedures, standards,                                                                                                             fied opinion on the financial statements of
                                                        address a large number of high- and moder-         FRB. The last report, issued September 26,
     and guidelines.                                                                                                                                            the funds administered by the FDIC in its
                                                        ate-risk security vulnerabilities were signifi-    2012, identified no ongoing issues concern-
         Key to achieving the FDIC’s mission of                                                            ing the FDIC’s implementation of the Plan.           April 2012 report entitled, Financial Audit:
                                                        cantly past their scheduled completion dates
     maintaining stability and public confidence in     on Plan of Action and Milestones, limiting the     In addition, we were not advised of any new          Federal Deposit Insurance Corporation Funds’
     the nation’s financial system is safeguarding      FDIC’s assurance that sensitive information        issues regarding the Plan, nor did Treasury          2011 and 2010 Financial Statements (Report
     the sensitive information, including personally    and IT resources are adequately protected.         OIG identify a need for any expanded or new          No. GAO-12-416). In addition, we submitted
     identifiable information, that the FDIC collects   In addition, risk in the area of Contractor        audit work impacting the FDIC, since the last        copies of requisite reports and representa-
     and manages in its role as federal deposit         Systems remained elevated due to the FDIC’s        report was issued. Accordingly, our office           tion letters to the Treasury, GAO, OMB, and
     insurer and regulator of state non-member          continued heavy reliance on contractors to         did not perform field work related to the            Department of Justice in accordance with the
     financial institutions. As an employer, an         support bank resolution and receivership           Plan as part of this audit. The report contains      Treasury Financial Manual.
     acquirer of services, and a receiver for failed    activities. While the FDIC had developed a         no recommendations and did not require                   Our report contained no recommenda-
     institutions, the FDIC also obtains considerable   risk-based strategy and formal methodology         a formal response from FDIC management.              tions, and the Director, Division of Finance,
     amounts of sensitive information from its          for assessing risks associated with Contrac-       Corporation officials did, however, express          elected not to provide a written response.
     employees, contractors, and failed institu-        tor Systems, significant work remained to          general agreement with the audit results
     tions. Further, the FDIC has begun collecting      apply the methodology to all of the FDIC’s         during the reporting process.
     sensitive information, such as resolution          outsourced information service providers.
     plans for systemically important financial         With respect to Risk Management, our report        Governmentwide Financial Report System
     institutions, pursuant to its responsibilities     describes an approach that the FDIC can take          Many federal agencies, including the
     under the Dodd-Frank Act. Implementing             to help ensure that business-led application       FDIC, were required to provide financial
38                                                                                                                                                                                                                39
     Strategic Goal 6: OIG Resources
     Management: Build and Sustain a High-
     Quality Staff, Effective Operations, OIG
     Independence, and Mutually Beneficial
     Working Relationships                                                                                the Dodd-Frank Act created the Financial            with the principles and concepts of GPRA. We
                                                                                                          Stability Oversight Council and further             continuously seek to integrate risk manage-
                                                                                                          established the Council of Inspectors General       ment considerations in all aspects of OIG
                                                                                                          on Financial Oversight (CIGFO). This Council        planning—both with respect to external and
                                                                                                          facilitates sharing of information among            internal work.
         While the OIG’s audit, evaluation, and         the OIG conducts its audit work in accordance     CIGFO member IGs and discusses ongoing                  To build and sustain a high-quality staff,
     investigation work is focused principally on       with generally accepted government audit-         work of each member IG as it relates to the         effective operations, OIG independence, and
     the FDIC’s programs and operations, we have        ing standards; its evaluations in accordance      broader financial sector and ways to improve        mutually beneficial working relationships,
     an obligation to hold ourselves to the highest     with Quality Standards for Inspection and         financial oversight. CIGFO may also convene         the OIG’s 2013 performance goals are as
     standards of performance and conduct. We           Evaluation; and its investigations, which often   working groups to evaluate the effectiveness        follows:
     seek to develop and retain a high-quality staff,   involve allegations of serious wrongdoing         of internal operations of the Financial Stability
     effective operations, OIG independence, and        that may involve potential violations of crimi-   Oversight Council. The Treasury IG chairs the       •	Effectively and efficiently manage OIG
     mutually beneficial working relationships          nal law, in accordance with Quality Standards     CIGFO and the FDIC IG is currently serving as         human, financial, IT, and physical resources.
     with all stakeholders. A major challenge for       for Investigations and procedures established     Vice Chair.                                         •	Ensure quality and efficiency of OIG audits,
     the OIG over the past few years has been           by the Department of Justice.                         The IG is a member of the Comptroller             evaluations, investigations, and other
     ensuring that we have the resources needed             Strong working relationships are funda-       General’s Advisory Council on Government              projects and operations.
     to effectively and efficiently carry out the OIG   mental to our success. We place a high priority   Auditing Standards. Additionally, the OIG           •	Encourage individual growth and strengthen
     mission at the FDIC, given a sharp increase in     on maintaining positive working relationships     meets with representatives of the U.S.                human capital management and leadership
     the OIG’s statutorily mandated work brought        with the FDIC Chairman, Vice Chairman, other      Government Accountability Office (GAO) to             through professional development and
     about by numerous financial institution            FDIC Board members, and management                coordinate work and minimize duplication of           training.
     failures, the FDIC’s substantial resolution and    officials. The OIG is a regular participant at    effort and with representatives of the Depart-
     receivership responsibilities, and now its new                                                                                                           •	Foster good client, stakeholder, and staff
                                                        FDIC Board meetings and at Audit Commit-          ment of Justice, including the FBI and U.S.           relationships.
     resolution authorities under the Dodd-Frank        tee meetings where recently issued audit          Attorneys’ Offices, to coordinate our criminal
     Act. All of these warrant vigilant, independent    and evaluation reports are discussed. Other       investigative work and pursue matters of            •	Enhance OIG risk management activities.
     oversight.                                         meetings occur throughout the year as OIG         mutual interest.                                        A brief listing of OIG activities in support
         To ensure a high-quality staff, we must        officials meet with division and office leaders       The FDIC OIG has its own strategic and          of these performance goals follows on the
     continuously invest in keeping staff knowl-        and attend and participate in internal FDIC       annual planning processes independent               next page.
     edge and skills at a level equal to the work       conferences and other forums.                     of the Corporation’s planning process, in
     that needs to be done, and we emphasize and            The OIG also places a high priority on        keeping with the independent nature of
     support training and development opportuni-        maintaining positive relationships with the       the OIG’s core mission. The Government
     ties for all OIG staff. We also strive to keep     Congress and providing timely, complete,          Performance and Results Act of 1993 (GPRA)
     communication channels open throughout             and high-quality responses to congressional       was enacted to improve the management,
     the office. We are mindful of ensuring effec-      inquiries. In most instances, this communica-     effectiveness, and accountability of federal
     tive and efficient use of human, financial, IT,    tion would include semiannual reports to the      programs. GPRA requires most federal
     and procurement resources in conducting            Congress; issued audit and evaluation reports;    agencies, including the FDIC, to develop
     OIG audits, evaluations, investigations, and       responses to other legislative mandates;          a strategic plan that broadly defines the
     other support activities, and have a disci-        information related to completed investiga-       agency’s mission and vision, an annual
     plined budget process to see to that end.          tions; comments on legislation and regula-        performance plan that translates the vision
         To carry out our responsibilities, the OIG     tions; written statements for congressional       and goals of the strategic plan into measur-
     must be professional, independent, objective,      hearings; contacts with congressional staff;      able objectives, and an annual performance
     fact-based, nonpartisan, fair, and balanced        responses to congressional correspondence         report that compares actual results against
     in all its work. Also, the IG and OIG staff        and Member requests; and materials related        planned goals.
     must be free both in fact and in appearance        to OIG appropriations.                                The OIG strongly supports GPRA and is
     from personal, external, and organizational            The OIG fully supports and participates       committed to applying its principles of strate-
     impairments to their independence. As a            in CIGIE activities, and the FDIC IG currently    gic planning and performance measurement
     member of the Council of the Inspectors            serves as Chair of its Audit Committee. We        and reporting to our operations. The OIG’s
     General on Integrity and Efficiency (CIGIE),       coordinate closely with representatives           Business Plan lays the basic foundation for
     the OIG adheres to the Quality Standards for       from the other financial regulatory OIGs. In      establishing goals, measuring performance,
     Federal Offices of Inspector General. Further,     this regard, as noted earlier in this report,     and reporting accomplishments consistent
40                                                                                                                                                                                                               41
         Effectively and Efficiently Manage OIG Human, Financial, IT, and Physical Resources                              Ensure Quality and Efficiency of OIG Audits, Evaluations, Investigations, and
     1    Provided the OIG’s FY 2014 budget proposal to the Congress for subsequent inclusion in the Presi-                                      Other Projects and Operations
          dent’s budget. This budget requests $34.6 million to support 130 full-time equivalents, reflecting no     1   Continued to implement the OIG’s Quality Assurance Plan for October 2010–March 2013 to ensure
          change from our FY 2013 budget, based on corporate workload assumptions of bank failures and                  quality in all audit and attestation engagement work and evaluations, in keeping with government
          resolution activity expected in calendar year 2013 and beyond.                                                auditing standards and Quality Standards for Inspection and Evaluation. As part of that plan, issued
     2    Continued to monitor, track, and control OIG spending, particularly as it relates to OIG travel-related       our annual Quality Monitoring and Analysis Summary of the OIG Audit Organization for 2012 and
          expenses and use of procurement cards.                                                                        issued a Quality Control Review of the OIG’s Assignment Planning Efforts.
                                                                                                                    2   Oversaw contracts to qualified firms to provide audit and evaluation services to the OIG to enhance
     3    Pursued options for a new investigative case management system, and worked to better track audit              the quality of our work and the breadth of our expertise as we conduct audits and evaluations, and
          and evaluation assignment costs and to manage audit and evaluation records located on shared                  closely monitored contractor performance.
          drives or SharePoint sites.
                                                                                                                    3   Continued use of the IG’s feedback form to assess time, cost, and overall quality and value of audits
     4    Engaged a contractor to review and update the OIG’s records and information management program                and evaluations.
          and practices to ensure an efficient and effective means of collecting, storing, and retrieving needed
          information and documents.                                                                                4   Relied on OIG Counsel’s Office to provide legal advice and counsel to teams conducting audits and
                                                                                                                        evaluations, and to support investigations of financial institution fraud and other criminal activity, in
     5    Continued using our inquiry intake system to capture and manage inquiries from the public, media,             the interest of ensuring legal sufficiency and quality of all OIG work.
          Congress, and the Corporation, in the interest of prompt and more effective handling of such inqui-
          ries. Participated with the FDIC’s group of Public Service Providers to share information on inquiries    5   Coordinated with State Department OIG staff to provide needed information for that office to carry
          and complaints received, identify common trends, and determine how best to respond to public                  out a peer review of our audit organization.
          concerns.
                                                                                                                    6   Coordinated the IG community’s audit peer review activities for OIGs governmentwide as part of our
     6    Engaged a contractor to assist with redesign of the OIG’s Intranet site to provide a more useful, effi-       leadership of the CIGIE Audit Committee to ensure a consistent and effective peer review process and
          cient work tool for all OIG staff.                                                                            quality in the federal audit function.

     7    Planned longer-range OIG personnel/recruiting strategies to ensure a strong, effective complement of      7   Reviewed and updated a number of OIG internal policies related to audit, evaluation, investigation,
          OIG resources going forward and in the interest of succession planning.                                       and management operations of the OIG to ensure they provide the basis for quality work that is
                                                                                                                        carried out efficiently and effectively throughout the office and made substantial progress converting
                                                                                                                        and transferring all such policies to a new automated policies and procedures repository for use by all
                                                                                                                        OIG staff.
                                                                                                                    8   Monitored and participated in the Corporation’s Plain Writing Act initiative to ensure quality products
                                                                                                                        and OIG compliance with the intent of the Act.




42                                                                                                                                                                                                                                  43
     Encourage Individual Growth and Strengthen Human Capital Management and Leadership                             5    Kept RMS, DRR, the Legal Division, and other FDIC program offices informed of the status and results
                         Through Professional Development and Training                                                   of our investigative work impacting their respective offices. This was accomplished by notifying FDIC
                                                                                                                         program offices of recent actions in OIG cases and providing Office of Investigations’ quarterly reports
      1 Continued to support members of the OIG attending graduate banking school programs to enhance                    to RMS, DRR, the Legal Division, and the Chairman’s Office outlining activity and results in our cases
          the OIG staff members’ expertise and knowledge of the banking industry.
                                                                                                                         involving closed and open banks. Coordinated closely with the Legal Division on matters pertaining
     2    Employed interns on a part-time basis in the OIG to provide assistance to the OIG.                             to enforcement actions and professional liability cases.
     3    Represented the CIGIE Audit Committee in the Office of Personnel Management’s initiative to close         6    Participated at FDIC Audit Committee meetings to present the results of completed audits, evalua-
          skills gaps associated with six mission-critical positions, including the auditor 511 positions.               tions, and related matters for consideration by Committee members.
     4    Continued involvement in the IG community’s introductory auditor training sessions designed to            7    Reviewed eight proposed or revised corporate policies related to, for example, the FDIC’s privacy
          provide attendees with an overall introduction to the community and enrich their understanding of              program, the FDIC’s workers compensation program, and the Corporation’s acceptable use policy for
          fundamental aspects of auditing in the federal environment. Devoted resources to teaching or facili-           IT resources. Made suggestions to increase clarity and specificity of these and other draft policies.
          tating various segments of the training.
                                                                                                                    8    Supported the IG community by having the IG serve as Chair of the CIGIE Audit Committee and
     5    Enrolled OIG staff in several different FDIC Leadership Development Programs to enhance their lead-            coordinating the activities of that group, including advising on the introductory auditor training and
          ership capabilities.                                                                                           oversight of the community’s audit peer review process and scheduling; attending monthly CIGIE
     6    Launched the OIG’s Mentoring Program to pair mentors and mentorees as a means of developing and                meetings and participating in Investigations Committee, Council of Counsels to the IGs, and Profes-
          enriching both parties in the relationship and enhancing contributions of OIG staff to the mission of          sional Development Committee meetings; and commenting on various legislative matters through
          the OIG.                                                                                                       the Legislative Committee.

     7    Sponsored lunch-time Webinars on a variety of topics relevant to the OIG in the interest of providing     9    Communicated with representatives of the OIGs of the federal banking regulators and others (FRB,
          additional opportunities for professional development for OIG staff.                                           Department of the Treasury, National Credit Union Administration, Securities and Exchange Commis-
                                                                                                                         sion, Farm Credit Administration, Commodity Futures Trading Commission, Federal Housing Finance
                                                                                                                         Agency, Export-Import Bank, SIGTARP, Department of Housing and Urban Development) to discuss
                                                                                                                         audit and investigative matters of mutual interest and leverage knowledge and resources. Partici-
                        Foster Good Client, Stakeholder, and Staff Relationships                                         pated on CIGFO, as established by the Dodd-Frank Act, with the IGs from most of the above-named
                                                                                                                         agencies, a Council on which the FDIC IG currently serves as Vice Chair. Formed part of the CIGFO
     1    Maintained congressional working relationships by briefing and communicating with various                      Working Group reviewing the designation of financial market utilities as systemically important.
          Committee staff on issues of interest to them; providing our Semiannual Report to the Congress for
          the 6-month period ending September 30, 2012; notifying interested congressional parties regarding        10   Responded to questions sent to the FDIC OIG, among other OIGs, from the Chairman and the Ranking
          the OIG’s completed audit and evaluation work; attending or monitoring FDIC-related hearings on                Member, Committee on Oversight and Government Reform, U.S. House of Representatives, regarding
          issues of concern to various oversight committees; and coordinating with the Corporation’s Office of           recommendations made to the FDIC and the working relationship the OIG has with FDIC manage-
          Legislative Affairs on issues of mutual interest.                                                              ment to improve efficiency and reduce waste.
          Of note during this reporting period was the IG’s testimony before the Committee on Financial             11   Formed the OIG’s Workplace Excellence Council, in keeping with the Corporation’s model of the same.
          Services, Subcommittee on Financial Institutions and Consumer Credit, U.S. House of Representatives            Convened the OIG group to explore means of ensuring excellence in the OIG’s internal operations and
          on matters related to our work in response to Public Law 112-88.                                               activities.

     2    Communicated with the Chairman, Vice Chairman, FDIC’s internal Director, other FDIC Board                 12   Coordinated with the Department of Justice and U.S. Attorneys’ Offices throughout the country in
          Members, the Chief Financial Officer, and other senior FDIC officials through the IG’s regularly sched-        the issuance of press releases announcing results of cases with FDIC OIG involvement and routinely
          uled meetings with them and through other forums.                                                              informed the FDIC’s Office of Communications and Chairman’s office of such releases.
     3    Participated in numerous outreach efforts with such external groups as the Federal Audit Executive        13   Coordinated with others in the Corporation with respect to revising the corporate directive on Coop-
          Council, the American Conference Institute, Department of Justice, international visitors hosted by            eration with the OIG.
          the FDIC, and the Federal Financial Institutions Examination Council to provide general information
          regarding the OIG and share perspectives on issues of mutual concern and importance to the financial      14   Named the OIG Counsel to the IG as the Whistleblower Protection Ombudsman, in keeping with the
          services industry.                                                                                             Whistleblower Protection Act of 2012, and coordinated with FDIC parties to ensure that the Corpora-
                                                                                                                         tion’s related training and informational materials are adequate.
     4    Held quarterly meetings with FDIC Division Directors and other senior officials to keep them apprised
          of ongoing OIG reviews, results, and planned work.




44                                                                                                                                                                                                                                  45
                                                                                                                  Cumulative Results (2-year period)


                                Enhance OIG Risk Management Activities                                                                 Nonmonetary Recommendations
                                                                                                                       April 2011 – September 2011                                                                  13
     1   Completed initial risk-based OIG planning efforts for audits, evaluations, and investigations during
         2013 and beyond, taking into consideration the goals of, and risks to, FDIC corporate programs and            October 2011 – March 2012                                                                    17
         operations and those risks more specific to the OIG. Issued the 2013 Business Plan reflecting OIG work        April 2012 – September 2012                                                                  21
         for the fiscal year.
                                                                                                                       October 2012 – March 2013                                                                    27
     2   Attended FDIC Board Meetings, Enterprise Risk Committee meetings, corporate planning and budget
         meetings, and other senior-level management meetings to monitor or discuss emerging risks at the
         Corporation and tailor OIG work accordingly.
     3   Provided the OIG’s 2012 assurance letter to the FDIC Chairman, under which the OIG provides assur-
         ance that it has made a reasonable effort to meet the internal control requirements of the Federal       Products Issued and Investigations Closed
         Managers’ Financial Integrity Act, OMB A-123, and other key legislation.
     4   Continued to monitor the management and performance challenge areas that we identified at the
                                                                                                                                                                                                                         50
         FDIC, in accordance with the Reports Consolidation Act of 2000 as we conducted audits, evalua-
         tions, and investigations: Carrying Out New Resolution Authority, Resolving Failed Institutions and                                                                                                             45
                                                                                                                  L E G E N D
         Managing Receiverships, Ensuring and Maintaining the Viability of the DIF, Ensuring Institution Safety                                                                                41                        40
         and Soundness Through an Effective Examination and Supervision Program, Protecting and Educating                                                                                                 39   38
                                                                                                                  •	   04/11 - 09/11                                                                                     35
         Consumers and Ensuring an Effective Compliance Program, and Effectively Managing the FDIC Work-          •	   10/11 - 03/12
                                                                                                                                                                                                     34
                                                                                                                                                                                                                         30
         force and Other Corporate Resources.
                                                                                                                  •	   04/12 - 09/12                                                                                     25
     5   Provided the OIG’s perspectives on the risk of fraud at the FDIC. We did so in response to GAO’s         •	   10/12 - 03/13                                                                                     20
         responsibility under Statement of Auditing Standards No. 99, Consideration of Fraud in Financial
                                                                                                                                                                                                                         15
         Statement Audits.                                                                                                                       15*
                                                                                                                                                       13                                                                10
                                                                                                                                                                          7   7                                           5
                                                                                                                                                                                                                          0

                                                                                                                                               MLRs, Audits &                                 Investigations
                                                                                                                                                Evaluations
                                                                                                                                           *Includes two audit-related memoranda.



                                                                                                                  Fines, Restitution, and Monetary Recoveries
                                                                                                                  Resulting from OIG Investigations (in millions)

                                                                                                                  L E G E N D                                                                                            500
                                                                                                                                                                              403.3
                                                                                                                  •	   04/11 - 09/11                                                                                     400
                                                                                                                  •	   10/11 - 03/12
                                                                                                                  •	   04/12 - 09/12                                                                                     300
                                                                                                                                                                                      240.9
                                                                                                                  •	   10/12 - 03/13




                                                                                                                                                        *See Note Below
                                                                                                                                                                                                    172                  200

                                                                                                                                                                                                                         100

                                                                                                                                                                                                                              0
                                                                                                                                           *For the period 04/11 - 09/11,
                                                                                                                                            fines, restitution, and monetary recoveries
                                                                                                                                            resulted in $3.7 billion.

46                                                                                                                                                                                                                                47
                                                                                                                               Appendix 1: Information Required by
                                                                                                                               the Inspector General Act of 1978, as Amended




         Reporting Requirements
                                                                                                                            Review of Legislation and Regulations
         Index of Reporting Requirements – Inspector General Act of 1978, as amended                                            The FDIC OIG’s review of legislation and regulations during the past 6-month period involved the
                                                                                                                            following activities:
                                                                                                                                OIG Counsel’s Office monitored and reviewed proposed legislation that might affect the Inspec-
                                           Reporting Requirements                                                Page       tor General community, particularly measures that would change the role that IGs play in annually
                                                                                                                            evaluating their respective agencies’ information security systems, as is required by FISMA and bills
                                                                                                                            that could affect the types of disclosure or redactions that the OIG may have to make with respect to
          Section 4(a)(2): Review of legislation and regulations                                                  49
                                                                                                                            OIG documents that are responsive to FOIA requests. Examples of legislation reviewed include the
                                                                                                                            following:
          Section 5(a)(1): Significant problems, abuses, and deficiencies                                      12-39
                                                                                                                              •	Draft legislation that would require OIGs to review agency expenditure data for accuracy, complete-
          Section 5(a)(2): Recommendations with respect to significant problems, abuses, and                                    ness, compliance with standards, etc. Counsel’s Office assisted in incorporating comments from
                                                                                                               12-39            other agencies and from the FDIC OIG, for consideration by a committee of CIGIE, and subsequently
          deficiencies
                                                                                                                                to Congressional staff members for further action.
          Section 5(a)(3): Recommendations described in previous semiannual reports on which correc-                          •	H.R. 1163, the Federal Information Security Amendments Act of 2013, which would eliminate the
                                                                                                                  50            current statutory obligation for OIGs to evaluate annually their agencies’ respective information
          tive action has not been completed
                                                                                                                                security program; in 2012, Counsel’s Office reviewed S. 3414, the Cybersecurity Act of 2012, which
          Section 5(a)(4): Matters referred to prosecutive authorities                                            11            would have changed the OIGs’ reporting requirements to, in essence, once every 2 years and would
                                                                                                                                have made some changes to the scope and methodology of the OIGs’ evaluations.
          Section 5(a)(5) and 6(b)(2): Summary of instances where requested information was refused               53          •	H.R. 1211, the FOIA Oversight and Implementation Act of 2013.
                                                                                                                              •	H.R. 313, the Government Spending Accountability Act of 2013, regarding government conference
          Section 5(a)(6): Listing of audit reports                                                               51            expenses, etc.
                                                                                                                                Counsel’s Office determined whether recent statutory enactments applied to the OIG, and to the
          Section 5(a)(7): Summary of particularly significant reports                                         12-39        extent the enactments were applicable, assisted the OIG in implementing them. These enactments
                                                                                                                            included Public Law 112-88, a statute that required the FDIC OIG and GAO to study and report on
          Section 5(a)(8): Statistical table showing the total number of audit reports and the total dollar                 various matters regarding the failure of financial institutions; the Dodd-Frank Act (Public Law 111-203);
                                                                                                                  52
          value of questioned costs                                                                                         the Whistleblower Protection Enhancement Act of 2012 (Public Law 112-199); the Government Charge
                                                                                                                            Card Abuse Prevention Act (Public Law 112-194); and the Reducing Over-Classification Act (Public Law
          Section 5(a)(9): Statistical table showing the total number of audit reports and the total dollar                 111-258).
                                                                                                                  52
          value of recommendations that funds be put to better use                                                             Counsel’s Office was mindful of the implications of two statutes (Public Laws 112-207 and 112-178)
                                                                                                                            involving (1) required reporting of certain financial interests by certain agency employees (FDIC and
          Section 5(a)(10): Audit recommendations more than 6 months old for which no management                            FDIC OIG) and (2) the effect on the OIG should its FY 2013 appropriations lapse, respectively.
                                                                                                                  53
          decision has been made

          Section 5(a)(11): Significant revised management decisions during the current reporting period          53

          Section 5(a)(12): Significant management decisions with which the OIG disagreed                         53


         Note: Evaluation report statistics are included in this report as well, in accordance with the Inspector General
     	         Reform Act of 2008.




48                                                                                                                                                                                                                                      49
     Significant Recommendations from Previous Semiannual Reports on Which                                                    Table II: Audit and Evaluation Reports Issued by Subject Area
     Corrective Actions Have Not Been Completed
                                                                                                                                                          Report                                      Questioned Costs        Funds Put to
         This table shows the corrective actions management has agreed to implement but has not completed, along with
                                                                                                                               Number and Date                          Title                      Total      Unsupported      Better Use
     associated monetary amounts. In some cases, corrective actions may be different from the initial recommendations
     made in the audit reports. However, the OIG has agreed that the planned actions meet the intent of the initial recom-    Supervision
     mendations. The information in this table is based on (1) information supplied by the FDIC’s Corporate Management
                                                                                                                              EVAL-13-001             Acquisition, Development, and
     Control (CMC), Division of Finance and (2) the OIG’s determination of closed recommendations. Recommendations
                                                                                                                              October 31, 2012        Construction Loan Concentration
     are closed when (a) CMC notifies the OIG that corrective actions are complete or (b) in the case of recommenda-
                                                                                                                                                      Study
     tions that the OIG determines to be particularly significant, after the OIG confirms that corrective actions have been
     completed and are responsive. CMC has categorized the status of these recommendations as follows:                        EVAL-13-002             Comprehensive Study on the Impact
                                                                                                                              January 3, 2013         of the Failure of Insured Depository
     Management Action in Process: (two recommendations from one report)                                                                              Institutions
         Management is in the process of implementing the corrective action plan, which may include modifications             Resolution and Receivership Management
     to policies, procedures, systems, or controls; issues involving monetary collection; and settlement negotiations in      AUD-13-001              DRR’s Controls for Managing,
     process.                                                                                                                 October 5, 2012         Marketing, and Disposing of Owned
                                                                                                                                                      Real Estate Assets
                                                                                                                              Resources Management
      Table I: Significant Recommendations from Previous Semiannual Reports on Which Corrective Actions 	
      	        Have Not Been Completed                                                                                        AUD-13-002              Invoices Submitted by Lockheed               $740,784        $137,958
                                                                                                                              October 11, 2012        Martin Services, Inc., under the FDIC’s
                                                                                                                                                      Data Management Services Contract
                                                      Significant            Brief Summary of Planned Correc-
                                                                                                                              AUD-13-003              Independent Evaluation of the FDIC’s
       Report Number, Title, and Date                 Recommendation         tive Actions and Associated Monetary
                                                                                                                              November 5, 2012        Information Security Program – 2012
                                                      Number                 Amounts
                                                                                                                              AUD-13-004              The FDIC’s Data Submissions through
       Management Action In Process                                                                                           February 4, 2013        the Governmentwide Financial Report
                                                                                                                                                      System as of September 30, 2012
       AUD-12-009                                              1             Review the manner in which management            AUD-13-005              Status of the Transfer of Office of Thrift
                                                                             fees are calculated under structured asset       February 4, 2013        Supervision Functions
       Corus Construction Venture, LLC
                                                                             sale agreements and determine whether            Totals for the Period                                                $740,784        $137,958
       Structured Asset Sale
                                                                             it is in the Corporation’s best interest for
       April 5, 2012
                                                                             management fees to be paid on nonac-
                                                                             crual and capitalized interest. Based on the
                                                                             results of this review, revisit prior manage-
                                                                             ment fees billed by ST Residential to ensure
                                                                             they were allowable and clarify the terms
                                                                             of future structured asset sale agreements
                                                                             to more clearly define the manner in
                                                                             which management fees are calculated.

                                                               2             Disallow $6,258,151 in servicing expenses
                                                                             that were deducted from the collections
                                                                             of funds received from the liquidation of
                                                                             assets during the period covered by the
                                                                             audit. (Questioned Costs of $3,754,891,
                                                                             which is 60 percent of $6,258,151.)
                                                                             DRR engaged a compliance monitoring
                                                                             contractor to conduct a comprehensive
                                                                             review of servicing expenses to deter-
                                                                             mine the amount to be disallowed.
50                                                                                                                                                                                                                                           51
     Table III: Audit and Evaluation Reports Issued with Questioned Costs                                      Table V: Status of OIG Recommendations Without Management Decisions
                                                                                                                   During this reporting period, there were no recommendations more than 6 months old
                                                                                    Questioned Costs           	   without management decisions.
                                                          Number
                                                                             Total            Unsupported
                                                                                                               Table VI: Significant Revised Management Decisions
      A.	 For which no management decision has been          0                 $0                  $0
                                                                                                                   During this reporting period, there were no significant revised management decisions.
      	 made by the commencement of the reporting
      	period.                                                                                                 Table VII: Significant Management Decisions with Which the OIG Disagreed
      B. Which were issued during the reporting period.      1              $740,784            $137,958           During this reporting period, there were no significant management decisions with which the
      Subtotals of A & B                                     1              $740,784            $137,958       	   OIG disagreed.
      C.	 For which a management decision was made           1              $740,784            $137,958
                                                                                                               Table VIII: Instances Where Information Was Refused
      	 during the reporting period.
                                                                                                                   During this reporting period, there were no instances where information was refused.
      	 (i) 	 dollar value of disallowed costs.              1              $740,784            $137,958
      	 (ii) 	dollar value of costs not disallowed.          0                 $0                  $0
      D.	 For which no management decision has been          0                 $0                  $0
      	 made by the end of the reporting period.
      	 Reports for which no management decision             0                 $0                  $0
      	 was made within 6 months of issuance.



     Table IV: Audit and Evaluation Reports Issued with Recommendations for Better Use of Funds


                                                                            Number              Dollar Value
      A.	 For which no management decision has been                             0                      $0
      	 made by the commencement of the reporting
      	period.
      B. Which were issued during the reporting period.                         0                      $0
      Subtotals of A & B                                                        0                      $0
      C.	 For which a management decision was made                              0                      $0
      	 during the reporting period.
      	 (i) dollar value of recommendations                                     0                      $0
      		 that were agreed to by management.
      	    - based on proposed management action                                0                      $0
      	    - based on proposed legislative action                               0                      $0
      	 (ii) dollar value of recommendations                                    0                      $0
      		 that were not agreed to by management.
      D.	 For which no management decision has been                             0                      $0
      	 made by the end of the reporting period.
      	 Reports for which no management decision                                0                      $0
      	 was made within 6 months of issuance.




52                                                                                                                                                                                                               53
Appendix 2: Information on Failure Review Activity
(required by the Dodd-Frank Wall Street Reform and Consumer Protection Act)




FDIC OIG Review Activity for the Period October 1, 2012 through March 31, 2013 (for failures causing losses to                            FDIC OIG Review Activity for the Period October 1, 2012 through March 31, 2013 (for failures causing losses to
the DIF of less than $150 million from January 1, 2012 through December 31, 2013)                                                         the DIF of less than $150 million from January 1, 2012 through December 31, 2013)
                                         Estimated                                                                                                                               Estimated                                            Unusual
                                                                                                 Unusual                    Due Date                                                            Grounds Identified by the                                        Due Date
                                          Loss to        Grounds Identified by the                                                                                                Loss to                                          Circumstances   Reason for
                                                                                              Circumstances   Reason for                                              Closing                    State Bank Supervisor
                              Closing       DIF           State Bank Supervisor                                                               Institution Name                      DIF                                              Warranting     In-Depth        or
     Institution Name                                                                           Warranting     In-Depth        or                                      Date                        for Appointing the
                               Date                         for Appointing the                                                                                                                                                        In-Depth       Review
                                                                                                 In-Depth       Review                                                           (Dollars in        FDIC as Receiver
                                          (Dollars in        FDIC as Receiver                                              Date Issued                                                                                                Review?                   Date Issued
                                           millions)                                             Review?                                                                          millions)

Failure Review Activity – Updated from Previous Semiannual Report                                                                         Georgia Trust Bank          7/20/12      $20.9       The bank was unable to meet              No            N/A          N/A
                                                                                                                                          (Buford, Georgia)                                    certain requirements of the
Reviews Completed During the Reporting Period or Pending/Ongoing as of the End of the Reporting Period                                                                                         Consent Order, including, but
Covenant Bank & Trust         3/23/12        $35        The bank was unable to meet                No            N/A          N/A                                                              not limited to, the requirements
(Rock Spring, Georgia)                                  the requirements of the Consent                                                                                                        for minimum levels of capitaliza-
                                                        Order, including, but not limited                                                                                                      tion.
                                                        to, the required levels of capital.                                               First Cherokee State Bank   7/20/12      $36.9       Economic conditions and the              No            N/A          N/A
Premier Bank                  3/23/12       $67.1       The bank’s capital was impaired.           No            N/A          N/A         (Woodstock, Georgia)                                 financial condition of the bank
(Wilmette, Illinois)                                    Further, the bank was operating                                                                                                        did not permit it to meet certain
                                                        in an unsound condition and                                                                                                            requirements of a Cease and
                                                        conducting its business in an                                                                                                          Desist Order, including, but not
                                                        unsafe and unsound manner.                                                                                                             limited to, the requirements for
                                                                                                                                                                                               minimum levels of capitalization.
First Capital Bank            6/8/12         $7.6       The bank failed to maintain                No            N/A          N/A
(Kingfisher, Oklahoma)                                  adequate capital and engaged in                                                   Heartland Bank (Leawood,    7/20/12       $3.1                       *
                                                        unsafe and unsound practices.                                                     Kansas)
Farmers’ and Traders’ State   6/8/12        $10.9       The bank’s capital was impaired,           No            N/A          N/A         Jasper Banking Company      7/27/12      $58.1                       *
Bank (Shabonna, Illinois)                               and the bank was in an unsound                                                    (Jasper, Georgia)
                                                        condition and conducting                                                          Waukegan Savings Bank        8/3/12      $19.8                       *
                                                        its business in an unsafe and                                                     (Waukegan, Illinois)
                                                        unsound manner.
                                                                                                                                          First Commercial Bank        9/7/12      $65.9                       *
Putnam State Bank             6/15/12       $39.1       The bank was insolvent.                    No            N/A          N/A         (Bloomington, Minnesota)
(Palatka, Florida)
                                                                                                                                          First United Bank           9/28/12      $50.7       The bank was conducting                  No            N/A          N/A
Security Exchange Bank        6/15/12       $36.0        The bank was unable to meet               No            N/A          N/A         (Crete, Illinois)                                    its business in an unsafe and
(Marietta, Georgia)                                     the requirements of a Cease                                                                                                            unsound manner.
                                                        and Desist Order, including,
                                                        but not limited to, the required                                                  Excel Bank                  10/19/12     $40.9                       *
                                                        minimum levels of capital, and                                                    (Sedalia, Missouri)
                                                        the bank’s capital was at a level                                                 GulfSouth Private Bank      10/19/12     $36.1       The bank was imminently                  No            N/A          N/A
                                                        that caused it to be Critically                                                   (Destin, Florida)                                    insolvent.
                                                        Undercapitalized.
                                                                                                                                          NOVA Bank                   10/26/12     $91.2                       *
Farmers Bank of Lynch-        6/15/12       $30.3       The bank’s capital was impaired            No            N/A          N/A         (Berwyn, Pennsylvania)
burg (Lynchburg,                                        and the bank was in an unsound
Tennessee)                                              condition, operating in an                                                        Heritage Bank of Florida    11/2/12      $65.5                       *
                                                        unsound manner, and unable to                                                     (Lutz, Florida)
                                                        continue its normal operations.                                                   Hometown Community          11/16/12     $36.7                       *
Montgomery Bank and           7/6/12        $75.2       The bank was unable to meet                No            N/A          N/A         Bank (Braselton, Georgia)
Trust (Ailey, Georgia)                                  certain requirements of a Cease                                                   Community Bank of the       12/14/12     $12.4                       *
                                                        and Desist Order, including, but                                                  Ozarks (Sunrise Beach,
                                                        not limited to, the requirements                                                  Missouri)
                                                        for minimum levels of capitaliza-
                                                        tion and adequate liquidity.                                                      Westside Community Bank     1/11/13      $26.8                       *
                                                                                                                                          (University Place,
Glasgow Savings Bank          7/13/12        $8         The insolvency of the bank was             No            N/A          N/A         Washington)
(Glasgow, Missouri)                       thousand      inevitable and there was no
                                                        prospect for recovery or recapi-                                                  1st Regents Bank            1/18/13      $16.2                       *
                                                        talization.                                                                       (Andover, Minnesota)
The Royal Palm Bank of        7/20/12       $13.5                        *                                                                Covenant Bank (Chicago,     2/15/13      $21.8                       *
Florida (Naples, Florida)                                                                                                                 Illinois)
                                                                                                                                          Frontier Bank (LaGrange,     3/8/13      $51.6                       *
* Failure review pending or ongoing as of the end of the reporting period.                                                                Georgia)
54                                                                                                                                       * Failure review pending or ongoing as of the end of the reporting period.                                                         55
     Appendix 3: Peer Review Activity
     (required by the Dodd-Frank Wall Street Reform and Consumer Protection Act)




         Section 989C of the Dodd-Frank Act contains additional semiannual reporting requirements pertaining to           to provide the SI OIG with reasonable assurance of         Attorney General guidelines. The Attorney General
     peer review reports. Federal Inspectors General are required to engage in peer review processes related to both      performing and reporting in conformity with appli-         guidelines include the Attorney General Guidelines for
     their audit and investigative operations. In keeping with Section 989C, the FDIC OIG is reporting the following      cable professional standards in all material respects.     Offices of Inspectors General with Statutory Law Enforce-
     information related to its peer review activities. These activities cover our role as both the reviewed and the      The SI OIG received a peer review rating of pass.          ment Authority (2003), Attorney General Guidelines for
     reviewing OIG and relate to both audit and investigative peer reviews.                                                   As is customary, we also issued a Letter of            Domestic Federal Bureau of Investigation Operations
                                                                                                                          Comment, dated September 21, 2011, that set                (2008), and Attorney General Guidelines Regarding the
     Audit Peer Reviews                                                                                                                                                              Use of Confidential Informants (2002).
                                                                                                                          forth findings and recommendations that were not
         On the audit side, on a 3-year cycle, peer reviews are conducted of an OIG audit organization’s system of        considered to be of sufficient significance to affect      •	In 2009, the FDIC OIG was the subject of a peer review
     quality control in accordance with the CIGIE Guide for Conducting External Peer Reviews of the Audit Organizations   our opinion expressed in the system review report.           conducted by the Department of the Interior (DOI)
     of Federal Offices of Inspector General, based on requirements in the Government Auditing Standards (Yellow          We made 11 recommendations, with which the SI                OIG. DOI issued its final report to us on September 9,
     Book). Federal audit organizations can receive a rating of pass, pass with deficiencies, or fail.                    OIG agreed. SI OIG indicated it would complete all           2009. In DOI’s opinion, the system of internal
                                                                                                                          corrective actions related to the findings and recom-        safeguards and management procedures for the
     •	The FDIC OIG was the subject of a peer review of
                                                                                                                          mendations no later than March 31, 2012. Our findings        investigative function of the FDIC OIG in effect for the
       its audit organization during a prior reporting
                                                                    Definition of Audit Peer Review Ratings               and recommendations related to the following areas:          period October 1, 2007 through September 30, 2008,
       period. The Railroad Retirement Board OIG
                                                                                                                          standards followed on desk reviews, statements of            was in compliance with the quality standards estab-
       conducted the review and issued its system review            Pass: The system of quality control for the audit     independence for referencers, disciplinary mechanism         lished by CIGIE and the Attorney General guidelines.
       report on September 21, 2010. In the Railroad                organization has been suitably designed and           for reporting personal impairments, reviews of               These safeguards and procedures provided reason-
       Retirement Board OIG’s opinion, the system of quality        complied with to provide the OIG with reason-         continuing professional education data, reporting            able assurance of conforming with professional
       control for our audit organization in effect for the year    able assurance of performing and reporting in         whether audit results can be projected, internal quality     standards in the conduct of FDIC OIG investigations.
       ended March 31, 2010, had been suitably designed             conformity with applicable professional stan-         assurance program enhancements, and SI OIG’s letter          DOI issued a letter of observations but made no
       and complied with to provide our office with reason-         dards in all material respects.                       related to the annual financial statements audit. SI OIG     recommendations in that letter.
       able assurance of performing and reporting in
                                                                                                                          has posted its peer review report (the system review       •	The FDIC OIG conducted a peer review of the
       conformity with applicable professional standards in
                                                                                                                          report and accompanying letter of comment) on its            investigative function of the National Aeronautics
       all material respects. We received a peer review rating      Pass with Deficiencies: The system of quality         Web site at www.si.edu/oig/.                                 and Space Administration (NASA) OIG during June
       of pass.                                                     control for the audit organization has been suit-
                                                                    ably designed and complied with to provide the            In our semiannual report as of March 31, 2012,           through August 2011. We issued our final report to
     	 The report’s accompanying letter of comment
                                                                    OIG with reasonable assurance of performing           we reported that the SI OIG reported completed               NASA OIG on November 10, 2011. We reported that,
     	 contained five recommendations that, while not
                                                                    and reporting in conformity with applicable           actions on 4 of our 11 recommendations. SI OIG               in our opinion, the system of internal safeguards
     	 affecting the overall opinion, were designed to
                                                                    professional standards in all material respects       was also updating its audit manual to reflect the FY         and management procedures for the investigative
     	 further strengthen the system of quality control
                                                                    with the exception of a certain deficiency or         2011 revision to government auditing standards and           function of the NASA OIG in effect for the period
     	 in the FDIC OIG Office of Audits.
                                                                    deficiencies that are described in the report.        recommendations from our peer review. As of the end          ending December 31, 2010 was in full compliance
        All actions taken in response to the Railroad Retire-                                                             of September 2012, SI OIG reported that actions on all       with the quality standards established by CIGIE and
     ment Board’s recommendations were completed by                                                                       recommendations in our peer review report had been           Attorney General Guidelines. We also issued a letter of
     February 23, 2011.                                             Fail: The review team has identified significant      completed.                                                   observations but made no recommendations in that
        This peer review report (the system review report           deficiencies and concludes that the system                                                                         letter.
                                                                    of quality control for the audit organization is      Ongoing FDIC OIG Audit Peer Review Activity
     and accompanying letter of comment) is posted on our                                                                                                                            •	During the last reporting period, the Department of
     Web site at www.fdicig.gov                                     not suitably designed to provide the reviewed             In April 2013, the State Department OIG and the          Energy (DOE) OIG conducted a peer review of our
                                                                    OIG with reasonable assurance of performing           FDIC OIG signed a memorandum of understanding for            investigative function. DOE OIG issued its final report
     FDIC OIG Peer Review of the Smithsonian                        and reporting in conformity with applicable           the State Department OIG to commence a peer review           on the quality assessment review of the investigative
     Institution OIG                                                professional standards in all material respects       of our audit organization. We anticipate completion of       operations of the FDIC OIG on July 31, 2012. DOE OIG
         The FDIC OIG completed a peer review of the audit          or the audit organization has not complied            that review by September 30, 2013, and will report the       reported that in its opinion, the system of internal
     operations of the Smithsonian Institution (SI), and we         with its system of quality control to provide         results in our next semiannual report.                       safeguards and management procedures for the
     issued our final report to that OIG on September 21,           the reviewed OIG with reasonable assurance of                                                                      investigative function of the FDIC OIG in effect for
                                                                    performing and reporting in conformity with           Investigative Peer Reviews
     2011. We reported that in our opinion, the system of                                                                                                                              the year ending June 22, 2012, was in compliance
     quality control for the audit organization of the SI OIG,      applicable professional standards in all material         Quality assessment peer reviews of investiga-            with quality standards established by CIGIE and
     in effect for the 15-month period ended March 31,              respects.                                             tive operations are conducted on a 3-year cycle as           the applicable Attorney General guidelines. These
     2011, had been suitably designed and complied with                                                                   well. Such reviews result in a determination that an         safeguards and procedures provided reasonable
                                                                                                                          organization is “in compliance” or “not in compliance”       assurance of conforming with professional standards
                                                                                                                          with relevant standards. These standards are based           in the planning, execution, and reporting of FDIC OIG
                                                                                                                          on Quality Standards for Investigations and applicable       investigations.
56                                                                                                                                                                                                                                                57
     Congratulations and Farewell
                               Ken Copeland                                         Mike Schuster                                         Nancy Cipolla
                                  Ken Copeland, Audit                                  Mike Schuster,                                        Nancy Cipolla, Senior
                                Specialist, retired                                  Special Agent,                                        Writer-Editor, retired
                                after nearly 42 years                                retired from the                                      from the FDIC after
                                of federal service.                                  FDIC after more than                                  more than 27 years of
                                His career began in                                  25 years of federal                                   federal service. She
                                1970 when he joined                                  service. He began his                                 began her service
                                the U.S. General                                     investigative career in                               at the Department
                                Accounting Office,                                   1987 at the Customs                                   of Defense OIG in
                                now the Government                                   Service of the U.S.                                   1985 and advanced
     Accountability Office, as an accountant. In          Department of the Treasury in McAllen, Texas.        steadily in that office over the years in her career
     1979, he transferred to the OIG at the former        In March 2003, along with others, he was part of     as an Editor. In 1998, she joined the OIG at the
     ACTION – which, in 1993, was merged with             a transfer of staff to Immigration and Customs       National Aeronautics and Space Administration,
     the Commission on National and Community             Enforcement, Department of Homeland                  where she continued to work as an Editor for
     Service to form the Corporation for National         Security, in Dallas. Subsequently, he joined the     more than 5 years. In 2003, she joined the FDIC
     and Community Service. In 1983, he joined the        FDIC OIG’s Dallas office where he served with        OIG as a Senior-Writer Editor.
     FDIC’s Office of Corporate Audits and Internal       distinction as a Special Agent since 2004.             During her tenure in the FDIC OIG, she helped
     Investigations, which later became the FDIC            Mike was instrumental in investigating a           establish editorial standards and ensure the
     OIG.                                                 variety of matters to help ensure integrity--from    quality of the Office of Audits’ written products.
       During his tenure, Ken experienced two             missing FDIC equipment to the 2008 failure           In the midst of the financial crisis, in particular,
     periods of financial crisis in our country, and in   of IndyMac Federal Bank. He also led the             she was instrumental in the successful issuance
     the face of each, he contributed to important        successful investigation and prosecutions of a       of the OIG’s first material loss reviews and later
     OIG audit efforts to promote economy,                number of embezzlement schemes committed             the OIG’s reports involving the FDIC’s resolution
     efficiency, and effectiveness in FDIC programs       by former bank officers, a California case           and receivership activities. She also took part
     and operations. Most recently, he played a key       involving money laundering and trafficking           in reviewing the products that independent
     role with respect to failed bank reviews required    of counterfeit goods, a review of mortgage           public accounting firms provided to the OIG in
     under the Dodd-Frank Act. Also of note, while        fraud allegations against the Association            support of OIG audits, thus ensuring that those
     working in the OIG, he helped develop and            of Community Organizations for Reform                products also reflected the high standards of
     foster constructive working relationships within     Now (ACORN), and a mortgage fraud case               the FDIC OIG. Nancy developed and later posted
     our office and with other offices in the FDIC.       perpetrated against IndyMac.                         on the OIG’s Intranet site helpful guidance
                                                            Over the years, he presented at seminars           and numerous sample documents that the
                                                          sponsored by the Federal Financial Institutions      staff could use as models as they proceeded
                                                          Examination Council; spoke at meetings of            through the auditing and writing phases of their
                                                          the Arkansas, Texas, and Tennessee Bankers’          assignments. These were, and will continue to
                                                          Associations; and shared perspectives on             be, invaluable tools for the OIG.
                                                          Bank Fraud and Money Laundering at the                 	
                                                          FDIC Dallas Regional Examiner Conference.
                                                          He also played an important leadership role
                                                          as a Director for the Dallas Chapter of the
                                                          Association of Certified Fraud Examiners and
                                                          served as an Adjunct Professor of Accounting
                                                          at both Northwood University and Texas A&M
                                                          University-Commerce.


58                                                                                                                                                                    59
